1a

APPENDIX A
IN THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
No. 1:18-cv-2545
Three-Judge Court (RDM, RLW, TNM)
ANGELICA CASTAÑON, ET AL.,
Plaintiffs,
v.
THE UNITED STATES OF AMERICA, ET AL.,
Defendants.
Filed: Nov. 13, 2020
NOTICE OF APPEAL
Please take notice that Plaintiffs in the abovecaptioned case hereby appeal to the Supreme Court of
the United States from this Court’s September 16,
2020 Memorandum Opinion and Order denying
Plaintiff’s motion for reconsideration (Dkt. Nos. 62
and 63) and from each and every opinion or ruling that
merged therein, including this Court’s March 12, 2020
Memorandum Opinion and Order granting in part
Defendants’ motion to dismiss and denying Plaintiffs’
motion for summary judgment (Dkt. Nos. 54 and 55).
This appeal is taken under 28 U.S.C. §§ 1253 and
2101.

2a
November 13, 2020

Respectfully submitted,
/s/ Christopher J. Wright
Christopher J. Wright
(D.C. Bar No. 367384)
Timothy J. Simeone
(D.C. Bar No. 453700)
Deepika H. Ravi
(D.C. Bar No. 1017076)
HARRIS, WILTSHIRE &
GRANNIS LLP
1919 M Street NW,
8th Floor
Washington, D.C. 20036
Telephone: 202-730-1300
cwright@hwglaw.com
tsimeone@hwglaw.com
dravi@hwglaw.com
Counsel for Plaintiffs

3a
APPENDIX B
IN THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Civil Action No. 18-2545
Three-Judge Court (RDM, RLW, TNM)
ANGELICA CASTAÑON, ET AL.,
Plaintiffs,
v.
UNITED STATES, ET AL.,
Defendants.
Filed: Mar. 12, 2020
Before: WILKINS, Circuit Judge, and MOSS and
MCFADDEN, District Judges.
Opinion for the Court filed by Circuit Judge WILKINS.

MEMORANDUM OPINION
WILKINS, Circuit Judge: This suit is brought by
registered voters residing in the District of Columbia
(the “District”) in an effort to secure for themselves,
and others similarly situated, the ability to elect
voting representatives to the United States Congress.
Plaintiffs challenge their lack of the congressional

4a
franchise as unconstitutional because violative of
their rights to equal protection, due process, and
association and representation. This case is a close
cousin of a suit litigated a generation ago, Adams v.
Clinton, 90 F. Supp. 2d 35 (D.D.C.), aff’d sub nom.
Alexander v. Mineta, 531 U.S. 940 (2000) (mem.), and
aff’d, 531 U.S. 941 (2000) (mem.), whose reasoning
necessarily informs ours and whose outcome, in the
end, we echo.
Beyond the gravity of its substance, perhaps this
suit’s most notable attribute is its bifurcation – the
gap between Plaintiffs’ central theory of the case and
those tertiary aspects of Plaintiffs’ claims whose
merits we are empowered to address. We recognize
that District residents’ lack of the congressional
franchise is viewed by many, even most, as deeply
unjust, and we have given each aspect of Plaintiffs’
claims most serious consideration, but our ruling
today is compelled by precedent and by the
Constitution itself.
I.

Procedural History

Plaintiffs – who are U.S. citizens, registered
voters, and residents of the various Wards of the
District of Columbia, Am. Compl. ¶ 21, ECF No. 9 –
filed their Complaint on November 5, 2018, and
amended it on November 26, 2018, see generally id.
The Amended Complaint “seeks to secure the right to
full voting representation in the United States
Congress for American citizens living in the District of
Columbia,” id. ¶ 1, and alleges three counts: denial of
equal protection, denial of due process, and
infringement of the right to association and
representation, id. ¶¶ 135-42. Originally named as

5a
defendants were: the Speaker, the Clerk, and the
Sergeant at Arms of the U.S. House of Representatives
(collectively, “the House Defendants”); the President
Pro Tempore, the Secretary, and the Sergeant at Arms
and Doorkeeper of the U.S. Senate, as well as the Vice
President in his capacity as President of the Senate
(“the Senate Defendants”); and the President and the
Secretary of Commerce of the United States (“the
Executive Defendants”). Id. ¶¶ 59-67. But on March
27, 2019, Plaintiffs voluntarily dismissed the House
Defendants, and the House later filed an amicus brief
in support of Plaintiffs’ cause.
On the day Plaintiffs filed the Amended
Complaint, they brought a motion for the convening of
a three-judge panel, pursuant to 28 U.S.C. § 2284(a),
which provides that “[a] district court of three judges
shall be convened . . . when an action is filed
challenging the constitutionality of the apportionment
of congressional districts[.]” District Judge Randolph
D. Moss, to whom the case was originally assigned,
found it appropriate to convene a three-judge District
Court; he therefore requested that then-Chief Judge
Merrick B. Garland of the U.S. Court of Appeals for
the District of Columbia Circuit designate two other
judges to serve on this panel. See 28 U.S.C. §
2284(b)(1) (authorizing the chief judge of the circuit to
designate a three-judge court).
Before us are a motion to dismiss (“MTD”)
pursuant to Federal Rules of Civil Procedure 12(b)(1)
and 12(b)(6), filed jointly by the Executive and Senate
Defendants, ECF No. 21, and Plaintiffs’ motion for
summary judgment (“MSJ”) pursuant to Federal Rule
of Civil Procedure 56, ECF No. 23. Amici have filed a

6a
total of eight briefs. 1
Having benefitted from oral argument, the parties’
filings, and the submissions of amici, we now consider,
in turn, the applicable standards of review, relevant
legal history, this panel’s subject-matter jurisdiction,
the justiciability of the claims over which we assert
jurisdiction, and the merits of the justiciable claims.
II.

Standards of Review

“[T]he scope of Rule 12(b)(1) is flexible,”
comprehending standing as well as most justiciability
issues. See 5B FED. PRAC. & PROC. CIV. § 1350 (Wright
& Miller 3d ed.). Jurisdictional issues are to be
considered and resolved at the threshold, and the
party invoking federal jurisdiction – here, Plaintiffs –
Amici are: (1) Concerned District of Columbia Legal
Organizations and Concerned District of Columbia Legal
Professionals, in support of Plaintiffs, ECF No. 43; (2) the
District of Columbia, in support of Plaintiffs, ECF No. 42; (3)
Historians Kenneth R. Bowling, William C. diGiacomantonio,
and George Derek Musgrove, in support of Plaintiffs, ECF No. 39
(“Historians’ Br.”); (4) David C. Krucoff, Executive Director and
Founder of the non-profit organization “Douglass County,
Maryland,” in support of Plaintiffs, ECF No. 45-1; (5)
constitutional law scholars Alan B. Morrison, Peter B. Edelman,
Lawrence Lessig, Peter M. Shane, Peter J. Smith, and Kathleen
M. Sullivan, in support of Plaintiffs, ECF No. 40 (“Scholars’ Br.”);
(6) U.S. House of Representatives, in support of Plaintiffs, ECF
No. 38 (“House’s Br.”); (7) John H. Page, in support of Plaintiffs
in part and of Defendants in part, ECF No. 46; and (8)
Washington Lawyers’ Committee for Civil Rights and Urban
Affairs, Neighbors United for DC Statehood, the League of
Women Voters of the United States, the League of Women Voters
of the District of Columbia, DC Vote, and American Civil
Liberties Union of the District of Columbia, in support of
Plaintiffs, ECF No. 41 (“Orgs.’ Br.”).
1

7a
bears the burden of establishing that the plaintiffs
have standing. Steel Co. v. Citizens for a Better Env’t,
523 U.S. 83, 94-95, 104 (1998). The Court may look
beyond the complaint in resolving questions of
jurisdiction. See Am. Freedom Law Ctr. v. Obama, 821
F.3d 44, 49 (D.C. Cir. 2016). On a Rule 12(b)(1)
motion, “it is well-settled that the complaint will be
construed broadly and liberally, in conformity with the
general principle set forth in Rule 8(e)[.]” 5B FED.
PRAC. & PROC. CIV. § 1350 (Wright & Miller 3d ed.);
see also Scheuer v. Rhodes, 416 U.S. 232, 236 (1974)
(“[I]t is well established that, in passing on a motion
to dismiss, whether on the ground of lack of
jurisdiction over the subject matter or for failure to
state a cause of action, the allegations of the complaint
should be construed favorably to the pleader.”),
abrogated on other grounds as recognized in Davis v.
Scherer, 468 U.S. 183, 191 (1984).
When considering a motion to dismiss for failure to
state a claim under Rule 12(b)(6), the Court assesses
whether the complaint “contain[s] sufficient factual
matter, accepted as true, to ‘state a claim to relief that
is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S.
662, 678, (2009) (quoting Bell Atl. Corp. v. Twombly,
550 U.S. 544, 570 (2007)). Here, too, the Amended
Complaint is construed in Plaintiffs’ favor, Scheuer,
416 U.S. at 236, and its material allegations are
accepted as true, Iqbal, 556 U.S. at 678. In considering
a Rule 12(b)(6) motion, we “consider the complaint in
its entirety,” and may also consider “documents
incorporated into the complaint by reference, and
matters of which a court may take judicial notice.”
Tellabs, Inc. v. Makor Issues & Rights, 551 U.S. 308,
322 (2007) (citing 5B FED. PRAC. & PROC. CIV. § 1357

8a
(Wright & Miller 3d ed. 2004 and Supp. 2007)).
Summary judgment, meanwhile, is appropriate
where the movant can demonstrate “that there is no
genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
FED. R. CIV. P. 56(a). A dispute about a material fact
“is ‘genuine’ . . . if the evidence is such that a
reasonable jury could return a verdict for the
nonmoving party.” Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248 (1986). At the summary-judgment
stage, “[t]he evidence of the non-movant is to be
believed, and all justifiable inferences are to be drawn
in his favor.” Id. at 255. There are no disputes of
material fact here.
III.

Background

The Seventeenth Amendment to the U.S.
Constitution provides that “[t]he Senate of the United
States shall be composed of two Senators from each
state, elected by the people thereof[.]” U.S. CONST.
amend. XVII. Article I of the Constitution,
meanwhile, provides that “[t]he House of
Representatives shall be composed of Members chosen
every second Year by the People of the several
States[.]” Id. art. I, § 2, cl. 1. The Fourteenth
Amendment dictates that “Representatives shall be
apportioned among the several States according to
their respective numbers,” id. amend. XIV, and
Article I provides that an “actual Enumeration” shall
be conducted every ten years, id. art. I, § 2, cl. 3. The
provisions of the Constitution relating to the
apportionment of House representation
are
effectuated by statute. The Secretary of Commerce
is charged, by 13 U.S.C. § 141, with the conduct of the

9a
decennial census; that statute also mandates that the
Secretary tabulate the total population “by States”
and report the same to the President within nine
months of the census date, id. § 141(b). The President
must then “transmit to the Congress a statement
showing the whole number of persons in each State . .
. and the number of Representatives to which each
State would be entitled[.]” 2 U.S.C. § 2a(a). “Each
State shall be entitled . . . to the number of
Representatives
shown”
in
the
President’s
statement, and within fifteen days of receiving that
statement, the Clerk of the House must “send to the
executive of each State a certificate of the number of
Representatives to which such State is entitled[.]” Id.
§ 2a(b). It is undisputed, and the Court takes judicial
notice of the fact, see FED. R. EVID. 201, that District
residents are unrepresented in Congress by anyone
but the Delegate, who by statute has a seat in the
House and may debate, but may not vote, 2 U.S.C. §
25a(a).
IV.

Adams

Neither we nor the parties write on a blank slate.
Twenty years ago, another three-judge panel of this
Court had occasion to pass on claims very similar to
those now before us, issuing a well-reasoned opinion
we are inclined to follow to the extent we are not
bound to do so. The holdings of the Adams court,
together with the Supreme Court’s summary
affirmances of the Adams panel’s judgment, serve as
the background against which we rule.
Adams represented the consolidation of two cases:
Adams v. Clinton and Alexander v. Daley. 90 F. Supp.
2d at 37-38. In both cases, the plaintiffs alleged that

10a
the failure to apportion House representatives to the
District, and to permit District residents to vote in
House and Senate elections, was unconstitutional
because violative of District residents’ rights to equal
protection and to a republican form of government. Id.
at 37. Additionally, some plaintiffs brought claims
that the defendants, among them the Secretary of
Commerce and the President, violated Article I, the
Seventeenth Amendment, and their due-process
rights, and abridged their privileges and immunities
as U.S. citizens, via their exclusion from the
congressional franchise. Id. at 38. The plaintiffs in the
consolidated suit “d[id] not dispute that to succeed they
must be able to characterize themselves as residents of
a ‘state.’” Id. at 46 (citations omitted). Among the
relief sought from the Adams panel was an injunction
against the Secretary of Commerce, compelling him to
include the District in his population report to the
President. See id. at 43; see also Alexander Compl. 59,
ECF No. 21-2.
Considering those defendants’ motions to dismiss
and plaintiffs’ motions for summary judgment, the
Adams panel – in a thorough opinion accompanied by
a similarly thoughtful partial dissent – remanded for
consideration by a single-judge District Court those
claims that did not concern apportionment, 90 F.
Supp. 2d at 39-40, and then ruled in favor of the
defendants and dismissed the remaining claims, id. at
72. The Adams panel concluded that, while the
plaintiffs had standing to pursue their apportionment
claims, id. at 45, dismissal of those claims was
appropriate because Article I restricted the House
franchise to “citizens of states,” and the District could
not “be considered a state for purposes of

11a
congressional representation under Article I.” Id. at
56.
The plaintiffs proceeded to the Supreme Court by
right of direct appeal, which 28 U.S.C. § 1253 makes
available to “any party . . . in any civil action, suit or
proceeding required by an Act of Congress to be heard
and determined by a district court of three judges”
where such appeal is from “an order granting or
denying . . . an interlocutory or permanent
injunction.” The Supreme Court, in twin issuances,
summarily affirmed the Adams panel’s judgment.
Alexander v. Mineta, 531 U.S. 940 (2000) (mem.);
Adams v. Clinton, 531 U.S. 941 (2000) (mem.).
The import of the Supreme Court’s treatment of
Adams – and thus the extent to which this Court is
bound – is not immediately clear. Lower courts have
been admonished that, while a summary affirmance
is a disposition on the merits and thus may not be
disregarded, see Hicks v. Miranda, 422 U.S. 332, 344
(1975) (“[T]he lower courts are bound by summary
decisions by this Court until such time as the Court
informs them that they are not.” (alterations, citation,
and internal quotation marks omitted)), a summary
affirmance has “considerably less precedential value
than an opinion on the merits,” Ill. State Bd. of
Elections v. Socialist Workers Party, 440 U.S. 173,
180-81 (1979). Moreover, “a summary affirmance is an
affirmance of the judgment only,” Comptroller of the
Treasury v. Wynne, 135 S. Ct. 1787, 1801 (2015)
(quoting Mandel v. Bradley, 432 U.S. 173, 176 (1977)),
rather than an affirmance of the reasoning of the
lower court, id. That said, the Supreme Court has
several times treated a lower court’s reasoning as

12a
relevant to a summary affirmance’s import. See, e.g.,
Harris v. Ariz. Indep. Redistricting Comm’n, 136 S. Ct.
1301, 1310 (2016) (citing summary affirmance in Cox
v. Larios, 542 U.S. 947 (2004), and approvingly
discussing the Cox District Court’s reasoning); Morse
v. Republican Party of Va., 517 U.S. 186, 202 (1996)
(citing “the logic of” a prior summary affirmance as
something that should have been instructive to the
Morse lower court, and quoting the prior District
Court’s reasoning).
Two relevant questions emerge from this
amalgam: those of substance and weight. As to
substance (and despite some jurisprudential
inconsistency on this score), the Court is guided by the
Supreme Court’s statements in Illinois State Board of
Elections: A summary affirmance’s “precedential
effect . . . can extend no farther than ‘the precise issues
presented and necessarily decided by those actions.’”
440 U.S. at 182 (quoting Mandel, 432 U.S. at 176). “A
summary disposition affirms only the judgment of the
court below, and no more may be read into our action
than was essential to sustain that judgment.” Id.
(citations omitted). Divining what was necessarily
decided by a summary affirmance necessitates an
examination of the jurisdictional statements
submitted to the Supreme Court pursuant to the prior
direct appeals. See William J. Schneier, The Do’s and
Don’ts of Determining the Precedential Value of
Supreme Court Summary Dispositions, 51 BROOK. L.
REV. 945, 960-61 & n.101 (1985) (citing Ill. State Bd. of
Elections, 440 U.S. at 182; see also Anderson v.
Celebrezze, 460 U.S. 780, 784-85 n.5 (1983);
Washington v. Confederate Band & Tribes of the
Yakima Indian Nation, 439 U.S. 463, 477 n.20 (1979);

13a
Mandel, 432 U.S. at 176; Tully v. Griffin, Inc., 429
U.S. 68, 74 (1976)). A lower court must also discern
whether there are any legally significant differences
between the case before it and the cases that were the
subject of summary affirmances, see Schneier, Do’s
and Don’ts, supra, 960 & n.100 (citing Ill. State Bd. of
Elections, 440 U.S. at 181-82; Mandel, 432 U.S. at 17677; Celebrezze, 460 U.S. at 784-85 n.5; Metromedia,
Inc. v. City of San Diego, 453 U.S. 490, 499 (1981)
(plurality)), and whether there have been superseding
doctrinal
developments
since
the
summary
affirmance, id. at 961 & n.104 (citing Hicks, 422 U.S.
at 344-45; Mandel, 432 U.S. at 180 (Brennan, J.,
concurring)).
On weight, in addition to understanding that a
summary affirmance’s precedential value is
“considerably less” than that of a full opinion, Ill.
State Bd. of Elections, 440 U.S. at 180-81, we are
informed by the Supreme Court’s endorsement of a
“do-it-yourself” approach. In Anderson v. Celebrezze,
the Supreme Court noted with approval that the Sixth
Circuit had “correctly recogniz[ed] the limited
precedential effect to be accorded summary
dispositions,” and had undertaken an “independent[]”
analysis. 460 U.S. at 784-85; see also id. at 784 n.5
(“The Court of Appeals quite properly concluded that
our summary affirmances . . . were a ‘rather slender
reed’ on which to rest its decision.” (citation omitted)).
Against this backdrop, we proceed to the case now
before us, beginning, as we must, with an analysis of
whether we have jurisdiction to review each of the
claims in this case. Steel Co., 523 U.S. at 94.

14a
V.

Jurisdiction over Plaintiffs’ House
Claims

In the first of several threshold issues, Defendants
contend that this case ought not to have been referred
to a three-judge panel “because Plaintiffs’ [Amended
C]omplaint challenges the District’s lack of
representation in the House, not any particular
apportionment of congressional districts.” Mem. in
Supp. of MTD at 9 n.9 (citing City of Philadelphia v.
Klutznick, 503 F. Supp. 657, 658 (E.D. Pa. 1980)). This
argument is foreclosed, however, by the Supreme
Court’s summary affirmances of the Adams panel’s
decision on the merits of those plaintiffs’ Houserelated claims. Like these Plaintiffs, the plaintiffs in
Adams challenged the District’s lack of representation
in the House, there arguing that the District should be
treated as a State, that District residents should be
able to vote as Maryland residents, and that the
District’s lack of House representation violated the
Equal Protection, Privileges or Immunities, Due
Process, and Republican Guarantee Clauses of the
Constitution. 90 F. Supp. 2d at 46, 56, 65. The Adams
panel’s jurisdiction to hear those plaintiffs’ claims was
essential to the Supreme Court’s direct review under
28 U.S.C. § 1253; had such jurisdiction been lacking,
the Supreme Court would have found itself to lack
jurisdiction to consider the matter on direct appeal.
See, e.g., Moody v. Flowers, 387 U.S. 97, 104 (1967)
(“[A] three-judge court was improperly convened.
Appeals should, therefore, have been taken to the
respective Courts of Appeals, not to this Court.”);
Adams v. Clinton, 531 U.S. at 941 (mem.) (“Justice
Stevens would dismiss the appeal.”). We therefore
hold that those of Plaintiffs’ claims that challenge the

15a
District’s lack of representation in the House are
properly before us as a three-judge District Court.
VI.

Jurisdiction over Plaintiffs’ Senate
Claims

An important threshold issue – though one neither
the parties nor amici address in their filings – is the
question of this panel’s jurisdiction over the claims
aimed at senatorial representation. The statute
giving rise to this three-judge District Court provides
for the convening of such a court “when an action is
filed challenging the constitutionality of the
apportionment of congressional districts[.]” 28 U.S.C.
§ 2284(a). But Plaintiffs’ suit extends beyond their
lack of representation in the House – the chamber
that “the apportionment of congressional districts”
concerns. Each of Plaintiffs’ three causes of action
decries their lack of voting representation not just in
the House, but in Congress writ large, see Am. Compl.
¶¶ 135, 137, 141; they have named as defendants the
President Pro Tempore of the Senate, the Vice
President in his capacity as president of the Senate,
and both the Clerk and the Sergeant at Arms of the
Senate, see id. ¶¶ 62-65; and among the relief sought
are injunctions compelling each of the Senate
Defendants to take action to the end of securing for
District residents representation in the Senate, see id.
Prayer for Relief ¶ 5. We are thus confronted with the
question of the propriety of our considering Plaintiffs’
senatorial claims. 2 Cf. Perez v. Ledesma, 401 U.S. 82,
In considering this question, we are mindful of, but not bound by,
the Adams panel’s discussion of the same question. The Adams
panel’s decision not to accept jurisdiction of the Senate claims

2

16a
87 (1971) (“Even where a three-judge court is properly
convened to consider one controversy between two
parties, the parties are not necessarily entitled to a
three-judge court and a direct appeal on other
controversies that may exist between them.” (citation
omitted)).
The Supreme Court has made clear that a properly
convened three-judge district court has some ability to
exercise a brand of supplemental jurisdiction over
claims beyond those that form the core of its statutory
jurisdictional grant. Claims that have been found to
be proper subjects for the exercise of such
supplemental jurisdiction have generally borne an
intimate relation to those that impelled the formation
of a three-judge district court in the first instance. For
example, while interpreting now-repealed 28 U.S.C. §
2281 (which provided that any injunction “restraining
the enforcement, operation or execution of a State
statute” due to unconstitutionality could only be
granted by a three-judge district court), the Supreme
Court held in Allee v. Medrano that a three-judge
district court may properly assert jurisdiction over
“every question pertaining to the prayer for the
injunction” that was the original basis for its
convening. See 416 U.S. 802, 812 n.8 (1974) (citing
Pub. Serv. Comm’n v. Brashear Freight Lines, 312 U.S.
621, 625 n.5 (1941)); see also Lake Carriers’ Ass’n v.
MacMullan, 406 U.S. 498, 504 n.5 (1972) (indicating
that “a three-judge court is the proper forum for all
presented there was in no way “essential to sustain that
judgment,” as would be necessary to give that holding in Adams
binding force through the operation of the Supreme Court’s
summary affirmances. See Ill. State Bd. of Elections, 440 U.S. at
182.

17a
claims against” (there) a challenged statute). As the
Adams panel observed, a three-judge court may also
decide ancillary claims where their resolution is
“necessary . . . to provide a ‘final and authoritative
decision of the controversy’ among the parties” to the
claims that gave rise to the three-judge court. See 90
F. Supp. 2d at 39 (citing Brashear Freight Lines, 312
U.S. at 625 n.5, and Allee, 416 U.S. at 812 n.8). And it
is permissible for a three-judge district court to
consider ancillary claims where resolution of those
claims would dispose of the entire case, including those
claims over which the panel has original jurisdiction.
See United States v. Ga. Pub. Serv. Comm’n, 371 U.S.
285, 287-88 (1963) (“Once convened the case can be
disposed of below or here on any ground, whether or
not it would have justified the calling of a three-judge
court.” (citations omitted)).
Only on the margins might any of these factors be
said to be present here. It certainly cannot be declared
that disposition of Plaintiffs’ Senate claims is
necessary to settle the controversy between Plaintiffs
and the Executive Defendants, against whom the
apportionment claims are asserted, see Brashear
Freight Lines, 312 U.S. at 625 n.5, or that resolution
of the apportionment claims would obviate the need to
decide the Senate claims, see Ga. Pub. Serv. Comm’n,
371 U.S. at 287-88. And while the Senate claims do of
course “pertain” to Plaintiffs’ quest for representation
in Congress as a whole, it is Plaintiffs’ challenge to
apportionment – not any challenge to their exclusion
from Congress writ large – that is the basis on which
this Court convened. See Allee, 416 U.S. at 812 n.8.
Moreover, even if there is some framing of

18a
Plaintiffs’ Senate claims that would lend propriety to
this panel’s consideration of them, the Supreme Court
has made clear that even the proper exercise of
jurisdiction over such non-core claims is discretionary.
See, e.g., Hagans v. Lavine, 415 U.S. 528, 544 (1974)
(noting that, when a three-judge district court was
presented with a claim that fell outside its core
statutory purview, “the most appropriate course may
well have been to remand to the single district judge
for findings and the determination of [that] claim”
(quoting Rosado v. Wyman, 397 U.S. 397, 403 (1970)).
We are cognizant of the fact that our resolution of the
Senate claims would “deprive the Court of Appeals of
the opportunity to review our work.” Adams, 90 F.
Supp. 2d at 39 (citing 28 U.S.C. § 1253). Moreover, a
misstep in this sphere could result in the Supreme
Court finding that it may not consider on direct appeal
our judgment on the Senate claims. See, e.g., Perez,
401 U.S. at 85-88 (“Under 28 U.S.C. § 1253, we have
jurisdiction to consider on direct appeal only those
civil actions ‘required . . . to be heard and determined’
by a three-judge court. Since the constitutionality of
this parish ordinance was not ‘required . . . to be heard
and determined’ by a three-judge panel, there is no
jurisdiction in this Court to review that question.”
(alterations in original)). These considerations lead us
to decline to consider those of Plaintiffs’ claims that
concern Senate representation. We remand those
claims for Judge Moss’s sole consideration.

19a
VII.

Justiciability of Plaintiffs’ Principal
House Claims

We now turn to what we perceive to be the heart of
the matter: Plaintiffs’ supposition that Congress is
under a constitutional obligation to act affirmatively
in a way it has not yet done, and that this Court may
(and should) use its power to the end of compelling
such action. See, e.g., Am. Compl. ¶¶ 11-13, 114, 141;
id. Prayer for Relief ¶¶ 1, 5; Mem. in Supp. of MSJ at
40-41. To the extent Plaintiffs’ claims are premised on
this notion – that is, insofar as they seek to litigate or
redress Congress’s allegedly wrongful inaction – we
find such claims not to be justiciable, and accordingly
dismiss them.
To set the stage, Plaintiffs contend that Congress
is empowered by the District Clause of Article I of the
U.S. Constitution to provide by legislation for the
congressional enfranchisement of District residents.
E.g., Am. Compl. ¶¶ 4, 11, 13, 92-104; see U.S. CONST.
art. 1, § 8, cl. 17 (“The Congress shall have Power . . .
[t]o exercise exclusive Legislation in all Cases
whatsoever, over such District (not exceeding ten
Miles square) as may, by Cession of particular States,
and the Acceptance of Congress, become the Seat of
the Government of the United States[.]”). Plaintiffs
further assert that Congress’s failure to use its
District Clause power to this end, Am. Compl. ¶¶ 11214 (noting this failure), is violative of their rights of
equal protection, id. ¶ 125, due process, see id. ¶ 5, and
association and representation, id. ¶¶ 118-19. They
seek, as relevant here: (1) a declaration to the effect
that they (and all others similarly situated) have a
constitutional right to the congressional franchise, that

20a
the Defendants have violated this right, and that “the
continuing deprivation of this right violates one of the
most precious attributes of United States citizenship,”
id. Prayer for Relief ¶ 1; and (2) after the Court defers
“further relief for a reasonable period of time to
provide Congress an opportunity, on the basis of the
Court’s declaratory judgment, to fashion a
constitutional remedy that will vindicate the
constitutional rights” of District residents to the
congressional franchise, id. ¶ 3, an “order [of]
injunctive relief,” which “could include . . . ordering
the Defendants to present plans” for how they will
enfranchise District residents and then “ordering
Defendants to pursue the steps that will most
appropriately assure” that District residents will
secure the congressional franchise, id. ¶ 5.
We are troubled by the import of Plaintiffs’ central
premise: that it is both feasible and proper for this
Court to order (or otherwise seek to compel) Congress
to enact particular legislation. The concerns raised by
such a premise include Article I’s Speech or Debate
Clause, U.S. CONST. art. I, § 6, cl. 1; see, e.g., Eastland
v. U.S. Servicemen’s Fund, 421 U.S. 491, 502 (1975)
(“The purpose of the Clause is to insure that the
legislative function the Constitution allocates to
Congress may be performed independently.”), general
separation-of-powers principles, and Article III
standing. We explicate and rely on the last of these,
the analysis of which necessarily implicates them all.
We first pause, however, to note that the
justiciability of these claims is not among those issues
on which our hand is guided by Adams and its
summary affirmances, in binding or even persuasive

21a
fashion. As Plaintiffs themselves acknowledge, their
focus on the District Clause sets their central claims
apart from those asserted in Adams. E.g., Am. Compl.
¶¶ 10 (“[U]nlike the equal protection challenge in
Adams, Plaintiffs’ claims here are . . . . based on
Congress’s refusal to exercise its authority to
protect the voting rights of District residents in
the face of its recognition, post-Adams, that it has
the power to do so.”), 124 (“[U]nlike the Adams
plaintiffs, the plaintiffs here contend that they are
constitutionally entitled to voting representation
notwithstanding that they are not residents of a State
and that legislative and legal developments after
Adams entitle them to that representation.”); Mem. in
Supp. of MSJ at 8 (“The argument that Congress has
the authority under the District Clause to grant voting
rights to District residents was neither made nor
addressed in Adams.”). The Adams panel expressed
no opinion on the particular issues now before us;
although the Alexander complaint prayed for items of
relief virtually identical to those here at issue, see
Alexander Compl. 57-60, the Adams panel construed
the thrust of those plaintiffs’ House-related claims to
be concerned largely with apportionment, and in any
case did not pass on any theory analogous to the one
Plaintiffs now press. See generally 90 F. Supp. 2d 35.
Nor – in case there were any remaining doubt – does
either of the jurisdictional statements submitted to
the Supreme Court by the Adams and Alexander
plaintiffs, respectively, squarely present the theory
Plaintiffs assert here: that it is unconstitutional for
Congress to have neglected to use its District Clause
powers to give District residents the House franchise.
See generally Jurisdictional Statement, Alexander v.
Mineta, 531 U.S. 940 (2000) (No. 99-2062);

22a
Jurisdictional Statement, Adams v. Clinton, 531 U.S.
941 (2000) (No. 00-97), 2000 WL 33999989. Because
this argument “was neither made nor addressed in
Adams,” Mem. in Supp. of MSJ at 8, neither that
decision nor its twin summary affirmances marks or
illuminates our path.
In order to meet “the ‘irreducible constitutional
minimum’ of standing,” Spokeo, Inc. v. Robins, 136 S.
Ct. 1540, 1547 (2016) (quoting Lujan v. Defenders of
Wildlife, 504 U.S. 555, 560 (1992)), a plaintiff “must
have (1) suffered an injury in fact, (2) that is fairly
traceable to the challenged conduct of the defendant,
and (3) that is likely to be redressed by a favorable
judicial decision,” id. (citing Lujan, 504 U.S. at 56061). The “standing inquiry [is] especially rigorous
when reaching the merits of the dispute would force
[the Court] to decide whether an action taken by one
of the other two branches of the Federal Government
was unconstitutional.” Raines v. Byrd, 521 U.S. 811,
819 (1997).
In performing the standing analysis, the Court
“accept[s] as true all material allegations of the
complaint,” Warth v. Seldin, 422 U.S. 490, 501 (1975),
construes the complaint in the plaintiffs’ favor, id.,
and assumes the plaintiffs’ success on the merits of
their claims, City of Waukesha v. EPA, 320 F.3d 228,
235 (D.C. Cir. 2003) (per curiam). We therefore accept,
for the moment, the validity of Plaintiffs’ premises
concerning the import of the District Clause, and
generally assume for present purposes that Plaintiffs
will prevail.
Defendants do not contend that Plaintiffs have not
suffered an injury in fact, but of course that does not

23a
end our inquiry. See United States v. Hays, 515 U.S.
737, 742 (1995) (“The question of standing is not
subject to waiver[.]”). Plaintiffs’ asserted injury is the
denial of the right to voting representation in
Congress. See, e.g., Am. Compl. ¶ 1. Assuming the
merits of Plaintiffs’ claims – in particular, that they
have a constitutional right to the House franchise –
they have suffered an injury in fact as a result of that
denial.
“[V]oters who allege facts showing
disadvantage to themselves as individuals have
standing to sue.” Baker v. Carr, 369 U.S. 186, 206
(1962) (finding an injury in fact where plaintiffs
asserted that an apportionment impaired their right
to vote for county representatives). We also reject any
notion that the asserted injury is a generalized one.
“[W]here a harm is concrete, though widely shared,
the Court has found ‘injury in fact.’” FEC v. Akins, 524
U.S. 11, 24 (1998) (citation omitted); see also Baker,
369 U.S. at 207-08 (“The injury which appellants
assert is that this classification disfavors the voters in
the counties in which they reside, placing them in a
position of constitutionally unjustifiable inequality
vis-à-vis voters in irrationally favored counties. A
citizen’s right to a vote free of arbitrary impairment
by state action has been judicially recognized as a right
secured by the Constitution . . . . If such impairment
does produce a legally cognizable injury, they are
among those who have sustained it.”). Plaintiffs have,
we conclude, suffered an injury in fact.
But having cleared the first of the three hurdles,
Plaintiffs are confronted with the difficult obstacles of
causation and redressability. Unpacking causation
requires consideration of the actions of the Executive
Defendants and those Senate Defendants who might

24a
be fairly said to remain before us even after our
remand of Plaintiff’s Senate claims: the President Pro
Tempore of the Senate and the Vice President in his
capacity as President of the Senate, both of whom
could be required to vote on any legislation granting
District residents the House franchise. 3 Our
discussion of redressability brings us back to the issue
of our own power, and in particular its limitations.
Again, the causation analysis requires us to
consider whether the alleged injury in fact is fairly
traceable to the challenged conduct of the defendants.
Spokeo, 136 S. Ct. at 1547. Moreover, “it does not
suffice if the injury complained of is ‘the result of the
independent action of some third party not before the
court[.]’” Bennett v. Spear, 520 U.S. 154, 169 (1997)
Because we disclaim jurisdiction over Plaintiffs’ Senate claims,
those Senate Defendants whose duties pertain only to Senate
operations and do not comprehend legislating – the Secretary of
the Senate and its Sergeant at Arms – are no longer before us.
See Am. Compl. ¶¶ 63 (noting that the Secretary of the Senate
“serves as an administrative and financial officer”), 64 (stating
that the Sergeant at Arms of the Senate “is the chief law
enforcement officer of the Senate”); id. Prayer for Relief ¶¶ 5(d)
(seeking an injunction against the Secretary of the Senate as to
the transmission of Senate-election forms), (b) (seeking an
injunction against the Sergeant at Arms of the Senate requiring
him to seat a District-elected Senator), (e) (seeking an injunction
compelling the Sergeant at Arms of the Senate to otherwise “give
effect to votes cast by the citizens of the District” in a senatorial
election). But the President Pro Tempore of the Senate and the
Vice President may be required to play a role in vindicating
Plaintiffs’ House claims. Cf. U.S. CONST. art. I, § 3, cl. 4
(providing that the Vice President may vote in the Senate where
necessary to break ties). Therefore, our remand of Plaintiffs’
Senate claims to a single District Court judge does not remove
the President Pro Tempore of the Senate or the Vice President
from the picture as we consider Plaintiffs’ remaining claims.
3

25a
(quoting Lujan, 504 U.S. at 560-61 (brackets and
emphasis omitted)). In other words, “[t]he causation
element requires that a proper defendant be sued.”
Common Cause v. Biden, 748 F.3d 1280, 1284 (D.C.
Cir. 2014) (citations omitted). It is abundantly clear
that insofar as Plaintiffs are pressing the theory that
Congress should have acted in a particular way but
has wrongfully not bestirred itself to do so, neither of
the Executive Defendants can be held responsible for
Plaintiffs’ lack of the House franchise. Nor can those
Senate Defendants whose duties comprehend voting
on legislation be charged with “causing” Plaintiffs’
injury. The nonexistence of any statutes granting
Plaintiffs the House franchise is not fairly traceable to
individual legislators, who themselves have no power
to pass legislation, but rather is caused by the inaction
of the chambers of Congress writ large. 4 “In short,
[Plaintiffs’] alleged injury was not caused by any of
the defendants, but by [] ‘absent third part[ies]’” – the
House and the Senate. See Common Cause, 748 F.3d
at 1285 (quoting Fla. Audobon Soc’y v. Bentsen, 94
F.3d 658, 663 (D.C. Cir. 1996)).
We do not wonder at Plaintiffs’ failure to name the
correct parties as defendants, of course, for it is well
established that the Speech or Debate Clause would
pose “an absolute bar to suit” where plaintiffs seek to
assign liability for “any act that falls ‘within the
sphere of legitimate legislative activity.’” Common
Cause, 748 F.3d at 1283 (quoting Eastland, 421 U.S.
Even were we to take a different view of causation as to the
Senate Defendants, the end result would not change, as the
Speech or Debate Clause would preclude Plaintiffs from
pursuing individual legislators for their “legitimate legislative
activity.” Eastland, 421 U.S. at 503.
4

26a
at 503); see U.S. CONST. art. I, § 6, cl. 1. But we find
Plaintiffs’ attempted workaround to be fatally infirm.
“Article III ‘requires no more than de facto causality,’”
Dep’t of Commerce v. New York, 139 S. Ct. 2551, 2565
(2019) (quoting Block v. Meese, 793 F.2d 1303, 1309
(D.C. Cir. 1986)) – but it does require that much, and
it is not present here. We find, therefore, that
Plaintiffs have failed to establish the “causation”
prong of Article III standing with respect to those
aspects of their claims that are premised on the
wrongfulness of congressional inaction.
We also observe that Plaintiffs cannot carry their
burden to establish redressability as to these claims.
Redressability is present where it is “likely, as
opposed to merely speculative, that the injury will be
redressed by a favorable decision.” Lujan, 504 U.S. at
561 (citation and internal quotation marks omitted).
And “standing is not dispensed in gross,” Town of
Chester v. Laroe Estates, Inc., 137 S. Ct. 1645, 1650
(2017) (quoting Davis v. FEC, 554 U.S. 724, 734
(2008)); rather, “a plaintiff must demonstrate standing
. . . for each form of relief that is sought,” id. (quoting
Davis, 554 U.S. at 734). Again viewing Plaintiffs’
claims in the light in which they are primarily cast –
as arising from congressional inaction, and thus
presumably redressable only by affirmative
congressional action – we find highly dubious the
notion that Article III redressability could be present,
given the confines of the federal judiciary’s power.
The Speech or Debate Clause – not to mention
separation-of-powers principles more broadly – make
quite impossible the injunctive relief Plaintiffs appear
to contemplate. See Am. Compl. Prayer for Relief ¶
5(h) (praying that the court “order[] Defendants to

27a
pursue the steps that will most appropriately assure
the rights of District of Columbia citizens to
participate in the election of voting members of
Congress”); see also Eastland, 421 U.S. at 503 (noting
that the Speech or Debate Clause confers immunity
for any act that falls “within the sphere of legitimate
legislative activity”); U.S. CONST. art I, § 1, cl. 1 (“All
legislative Powers herein granted shall be vested in a
Congress of the United States[.]”).
As to the declaratory relief Plaintiffs seek, “a
request for declaratory relief may be considered
independently of whether other forms of relief are
appropriate.” Powell v. McCormack, 395 U.S. 486,
517-18
(1969)
(finding
redressability
while
“express[ing] no opinion about the appropriateness of
coercive relief” against officers of the House). But
Plaintiffs face an uphill climb to establish that
ultimate redress would “likely” follow our issuance of
a declaratory judgment in their favor should they
prevail. See Lujan, 504 U.S. at 561. “Whether
[Plaintiffs’] claims of [] injury would be redressed by a
favorable decision in this case depends on the
unfettered choices made by independent actors not
before the courts and whose exercise of broad and
legitimate discretion the courts cannot presume either
to control or to predict.” ASARCO Inc. v. Kadish, 490
U.S. 605, 615 (1989).
At argument and in their filings, Plaintiffs rely
heavily on Utah v. Evans, 536 U.S. 452 (2002), and
Franklin v. Massachusetts, 505 U.S. 788 (1992),
contending that the standing principles iterated
therein support their contention that redressability is
present here. In Franklin – where the plaintiffs were

28a
challenging the allocation of overseas federal
employees to States for apportionment purposes, 505
U.S. at 795 – a plurality of the Supreme Court found
redressability in the potential for declaratory relief
against the Secretary of Commerce, reasoning that it
was “substantially likely that the President and other
executive and congressional officials would abide by
an authoritative interpretation of the census statute
and constitutional provision by the District Court,
even though they would not be directly bound by such
a determination,” id. at 803. A Court majority cited
this language with approval in Evans, 536 U.S. at 460,
464, there considering a challenge to the methodology
used in the 2000 decennial census, id. at 457-58. In
addressing redressability, the Evans Court found that
“a declaration leading, or an injunction requiring, the
Secretary” of Commerce to issue a new census report
using a different calculation method “would amount to
a significant increase in the likelihood that the
plaintiff would obtain relief that directly redresses the
injury suffered,” id. at 464, as “the relevant
calculations and consequent apportionment-related
steps” that would follow a new report’s issuance (and
would redress the asserted injuries) “would be purely
mechanical,” id. at 463.
We do not find the reasoning espoused in Franklin
or Evans to be controlling here. No one can be heard
to say that congressional enactment of legislation –
which here is the key link in the chain leading to
ultimate redress – is “purely mechanical,” as would
bring this case within Evans’s scope. And while we
could posit that members of Congress would “abide by
an authoritative interpretation of the . . .
[C]onstitution[]” by this Court, Franklin, 505 U.S. at

29a
803, such persons acting in their capacity as
legislators are not the sorts of “congressional officials”
contemplated by the Franklin Court as likely to
provide ultimate redress via dutiful, predictable
adherence to a court’s declaration of the law.
Compounding this latter problem is the fact that
Plaintiffs have dismissed the House Defendants from
the suit, meaning that we could not (even in the
absence of all other impediments) issue any relief
running against them. See, e.g., Lujan, 504 U.S. at
568-71 (finding an absence of redressability where
remediation of plaintiffs’ injuries would have required
action by entities who “were not parties to the case”
and were thus beyond the lower court’s remedial
reach).
We cannot say that the issuance of the requested
declaratory judgment would make it “likely, as
opposed to merely speculative,” that Congress would
undertake the affirmative action that, under
Plaintiffs’ central theory of the case, would be
necessary to vindicate their asserted constitutional
right to the House franchise. See Lujan, 504 U.S. at
561. The daylight between this case on the one hand,
and Franklin and Evans on the other, shines in large
part from the separation of powers. It is simply not the
role of this Court to legislate, any more through
declaratory action than through injunction. The
bridge from our issuance of declaratory relief to
Plaintiffs’ receipt of ultimate redress would
necessarily pass through independent congressional
action, with all the political choices and policy
considerations entailed therein. It is a bridge too far.
We recognize some surface tension between this

30a
case and FEC v. Akins, cited by the Evans Court as
supporting its finding of redressability and thus
standing. See Evans, 536 U.S. at 464 (citing Akins,
524 U.S. at 25). Akins concerned those plaintiffs’ quest
to persuade the Federal Election Commission to
designate a certain group as a “political committee,”
in the hopes ultimately of obtaining information about
the group via statutorily mandated disclosures that
would likely follow from such a designation. 524 U.S.
at 15-16. The Akins plaintiffs brought suit seeking
review of FEC’s dismissal of their administrative
complaint. Id. at 18. The Supreme Court found
redressability to be present, notwithstanding the fact
that “the agency . . . might later, in the exercise of its
lawful discretion, reach the same result for a different
reason.” See id. at 25. And though at least one Court
of Appeals judge has read Akins’s redressability
finding to rest on the “assur[ance] that the FEC’s
discretionary decision [would be] based on a correct
understanding of the relevant law,” Igartúa-de la
Rosa v. United States, 417 F.3d 145, 182 (1st Cir.
2005) (en banc) (Torruella, J., dissenting), the
Supreme Court itself casts Akins’s redressability
finding as being premised on the increased likelihood
of FEC ultimately requiring reporting, despite its
power not to do so, Evans, 536 U.S. at 464; accord
Akins, 524 U.S. at 21 (casting the injury at issue as
the “inability to obtain information”).
The superficial parallels are at first pass
persuasive. Here, as in Akins, the relief requested is
but an initial step toward ultimate redress, Plaintiffs’
achievement of which is dependent upon choices by
government actors who the Court is powerless in the
first instance to control. But again we see daylight

31a
between Akins and our case, in that FEC, on receipt of
a complaint like the one in Akins, is obligated to take
some action. See 52 U.S.C. § 30109 (detailing how FEC
must respond to such complaints). In other words,
Akins is not a case in which the Supreme Court found
redressability in the potential for an independent
political actor under absolutely no obligation to act to
bestir itself to do so, and then to act in a way that
redressed the asserted injury; rather, it was inevitable
in Akins that some action would be taken on those
petitioners’ complaint following a favorable Court
ruling. Not so here. We cannot pretend to predict the
workings of Congress, and congressional issuances
are not compelled as are FEC’s. To posit that Congress
will act, let alone act in any particular way, is to
engage in the sort of speculation that Lujan instructs
may not be the basis for Article III standing. See 504
U.S. at 561.
Finding an absence of both causation and
redressability, we hold that insofar as Plaintiffs’
House-related claims are premised on allegedly
wrongful congressional inaction, those claims are
nonjusticiable for want of Article III standing and
accordingly are dismissed.
VIII. Justiciability of House Claims that
Resemble Those Considered in Adams
The above analysis does not close the book on all of
Plaintiffs’ claims, however. Although the central
thrust of Plaintiffs’ suit is nonjusticiable, there are
portions of the Amended Complaint that assert a more
conventional challenge: one to Plaintiffs’ exclusion
from apportionment and, in the same vein, to the

32a
apportionment statutes themselves. 5 In line with the
conclusion reached in Adams, we find that Plaintiffs’
constitutional challenges to apportionment are
justiciable.
The Amended Complaint makes evident that,
though apportionment is not their primary focus,
Plaintiffs do challenge their exclusion therefrom. In
their discussion of each of the Executive Defendants,
5 We do not understand Plaintiffs to be challenging the
Uniformed and Overseas Citizens Absentee Voting Act
(“UOCAVA”), Pub. L. No. 99-410, 100 Stat 924 (1986) (codified at
52 U.S.C. §§ 20301-11). UOCAVA requires States (as well as U.S.
territories and the District of Columbia) to permit otherwisequalified voters residing or stationed overseas to vote in the last
place they were domiciled prior to leaving the United States. 52
U.S.C. §§ 20302, 20310. Although the Amended Complaint does
make repeated mention of UOCAVA with respect to Plaintiffs’
equal- protection claim, see, e.g., Am. Compl. ¶¶ 4, 111, 112, 114,
125, 135, it has none of the hallmarks we would expect of a
complaint challenging UOCAVA’s constitutionality or
contending that UOCAVA should be expanded to grant some
District residents the congressional franchise. For instance, the
Amended Complaint’s focus is evidently on securing
congressional representation for District residents qua District
residents, not as (former) residents of States. See, e.g., id. ¶¶ 6
(arguing for “the constitutional right of District residents to band
together to further their political beliefs”), 133 (“Without voting
representation in the House and the Senate, District residents
are unable to rely on local champions in Congress arguing for a
fairer distribution of federal funds.”). None of Plaintiffs’
allegations as to the Defendants sued pertains to UOCAVA. See
id. ¶¶ 59-67. And none of the requested relief addresses
UOCAVA either striking the statute down wholesale or allowing
those District residents who previously resided and voted in
States to continue to vote there. See id. Prayer for Relief ¶¶ 1-7.
Because we conclude that Plaintiffs’ constitutional claims are
otherwise foreclosed, we have no occasion for further discussion
of UOCAVA.

33a
Plaintiffs zero in on their respective roles in
apportionment. See Am. Compl. ¶¶ 66 (the Secretary
of Commerce), 67 (the President). And among the
various items of relief sought are some directed at
apportionment: Plaintiffs seek a declaration that the
apportionment statutes (2 U.S.C. § 2a and 13 U.S.C. §
141) “are unconstitutional insofar as they require or
have been applied” to exclude District residents from
apportionment, Am. Compl. Prayer for Relief ¶ 1, and
also pray for injunctive relief compelling the
Secretary, the President, “and their successors in
office[] to include the District” in their apportionment
calculations and transmissions, id. ¶ 5(f). 6
These aspects of Plaintiffs’ claims map onto
Adams, where the panel addressed whether “the
failure to apportion congressional representatives to
the District . . . violate[d those plaintiffs’]
constitutional rights[.]” See 90 F. Supp. 2d at 37. The
Adams panel considered, in turn, the politicalquestion and standing doctrines, finding the
apportionment claims justiciable on both scores. 90 F.
Supp. 2d. at 40-45. In finding no political-question
barrier, the panel noted that “[t]he Supreme Court
has repeatedly declared that ‘[c]onstitutional
challenges to apportionment are justiciable,’” id. at 40
(quoting Franklin, 505 U.S. at 801 (plurality)), and
that the question of whether “District residents are
among those qualified to vote for congressional
We construe Plaintiffs’ apportionment claims as being asserted
only against the Executive Defendants, as the Amended
Complaint makes no apportionment-related allegations against
either the Vice President or the President Pro Tempore of the
Senate, see generally Am. Compl., and no other defendants
remain before us.
6

34a
representatives under Article I” was a “purely legal
issue” that “the courts are perfectly capable of
resolving,” id. As to standing, the Adams panel found
sufficient causation in the Secretary of Commerce’s
actions pursuant to the apportionment statute. 90 F.
Supp. 2d at 41. On redressability, the panel relied
primarily on Franklin, and concluded that “the ability
of the court to enjoin the Secretary establishes the
necessary redressability.” 90 F. Supp. 2d at 41-43; see
also Evans, 536 U.S. at 459- 64 (Court majority
endorsing Franklin’s redressability analysis).
The Supreme Court’s summary affirmances in
Adams v. Clinton, 531 U.S. 941 (2000) (mem.) and
Alexander v. Mineta, 531 U.S. 940 (2000) (mem.),
necessarily endorsed both of these justiciability
holdings. Had the Supreme Court disagreed with the
Adams panel’s justiciability findings, its action would
have been in the nature of dismissal rather than
affirmance. See, e.g., Rucho v. Common Cause, 139 S.
Ct. 2484, 2508 (2019) (finding a nonjusticiable political
question, vacating merits decisions of two three-judge
district courts, and remanding “with instructions to
dismiss for lack of jurisdiction”); Va. House of
Delegates v. Bethune-Hill, 139 S. Ct. 1945, 1956 (2019)
(finding absence of standing and dismissing appeal
“for lack of jurisdiction”); see also Adams v. Clinton,
531 U.S. at 941 (“Justice Stevens would dismiss the
appeal.”). That both summary affirmances were
issued in a post-Steel Co. era, see Steel Co., 523 U.S.
83, moreover, lends additional credence to our
conclusion that the Supreme Court considered the
jurisdictional questions and accounted for them in
summarily affirming the Adams panel’s judgment. In
view of the similarity between the claims asserted

35a
before the Adams panel and those asserted here –
claims
that
the
District’s
exclusion
from
apportionment violates the Constitution, paired with
a prayer for redress via injunctive relief against the
Secretary of Commerce – we believe we are bound by
Adams and its summary affirmances to find Plaintiffs’
apportionment claims justiciable and thus assert
jurisdiction over them.
Before proceeding to the merits of those claims still
before us, we note that Defendants also argue for the
dismissal of the President from the suit on the
grounds that the Court may not order equitable relief
against him for his official conduct and that there is no
cause of action against him. To the extent the first of
these arguments is distinct from the second, it goes to
the justiciability of Plaintiffs’ claims, and we find it
unnecessary to reach the issue. Again, Adams
anchored its redressability analysis (and thus its
finding of standing) in the court’s ability to enjoin the
Secretary of Commerce, 90 F. Supp. 2d at 43-44, and
the Supreme Court’s affirmances on the merits,
Alexander v. Mineta, 531 U.S. 940 (2000) (mem.);
Adams v. Clinton, 531 U.S. 941 (2000) (mem.), dictate
that we find standing here. In the absence of any need
to do so, we decline to wade into the question of the
President’s amenability to equitable relief. “[T]he
partial relief [Plaintiffs] can obtain against [a]
subordinate executive official[] . . . . is sufficient for
standing purposes when determining whether we can
order more complete relief would require us to delve
into complicated and exceptionally difficult questions
regarding the constit[ut]ional relationship between
the judiciary and the executive branch.” Swan v.
Clinton, 100 F.3d 973, 980-81 (D.C. Cir. 1996); accord

36a
Franklin, 505 U.S. at 803 (plurality) (“For purposes of
establishing standing, however, we need not decide
whether injunctive relief against the President was
appropriate, because we conclude that the injury
alleged is likely to be redressed by declaratory relief
against the Secretary alone.” (citations omitted)). As
to the existence of a cause of action against the
President, we need not decide that issue either,
because we conclude that dismissal of Plaintiffs’
remaining claims on Rule 12(b)(6) grounds, including
their claims against the President, is otherwise
appropriate.
IX.

The Merits of Plaintiffs’ Justiciable
House Claims

As explained above, insofar as Plaintiffs’ claims are
targeted at remediating congressional inaction,
Plaintiffs lack Article III standing to pursue them.
With all claims targeting representation in the Senate
remanded to the single-judge District Court from
whence they came, what remains to be decided is
whether the apportionment statutes, 13 U.S.C. § 141
and 2 U.S.C. § 2a, and the Secretary of Commerce’s
and the President’s actions in conformity with the
same, violate Plaintiffs’ rights to equal protection, due
process, or freedom of association and representation
due to the resultant denial to Plaintiffs of the House
franchise. We answer these questions, ultimately, in
the negative. Our analysis begins with consideration
of the effect of Adams on our disposition of the issues;
we then elucidate and unpack the parties’ central
premises before proceeding, finally, to the merits.

37a
A.

Adams

Our conclusion that Plaintiffs’ apportionment
claims fail to state a claim upon which relief can be
granted may be foreordained, in whole or in part, by
Adams and its summary affirmances. The Adams
panel concluded that Article I restricts representation
in the House to “the residents of actual states,” 90 F.
Supp. 2d at 47, and on that basis denied those
plaintiffs’
equal-protection,
privileges-andimmunities, due-process, and Republican Guarantee
Clause challenges to their exclusion from
apportionment, id. at 65-72. The Supreme Court’s
summary affirmances of that panel’s decision – which,
again, we are counseled to treat as binding, see Hicks,
422 U.S. at 344 – beg the question of what was both
necessarily decided there and essential to sustain the
District Court’s judgment, see Schneier, Do’s and
Don’ts, supra, 960-61. An examination of the
jurisdictional statements submitted to the Supreme
Court is illuminating to a point; the (original) Adams
plaintiffs presented, as relevant here, 7 only their
equal-protection challenge to their exclusion from
apportionment, see Jurisdictional Statement, Adams,
531 U.S. 941 (No. 00-97), 2000 WL 33999989, at *i,
while the Alexander plaintiffs disputed the Adams
panel’s more basic conclusion that Article I, Section 2
of the Constitution divests District residents of the
congressional franchise, as well as the broader holding
that such a restriction did not conflict with subsequent
constitutional amendments, see Jurisdictional
Statement, Alexander, 531 U.S. 940 (No. 99-2062), at
i.
The

jurisprudential

landscape

as

to

the

38a
precedential effect of summary affirmances is in such
a state as to make the search for a firm place on which
to rest a substantive holding exceedingly difficult.
Pressed by necessity, however, we believe that the
Supreme Court must have affirmed the Adams
holding that was the basis for the Adams panel’s
rejection of each of those plaintiffs’ specific
constitutional challenges: the holding that Article I
contemplates that only “residents of actual states”
have and may exercise the House franchise. We reach
this conclusion because this holding is the central
premise, and the narrowest ground, on which we
perceive Adams to rise or fall.
But we do not rest wholly on Adams, for several
reasons. For starters, Plaintiffs here are adamant
that their claims are not foreclosed by Adams due,
inter alia, to Congress’s recent discovery of the
applicability of (and Plaintiffs’ resultant reliance on)
the District Clause. 8 See, e.g., Am. Compl. ¶¶ 124-27
The Adams plaintiffs also “provisionally” presented the
question of whether the Adams panel’s handling of their case had
violated their rights to due process. Jurisdictional Statement,
Adams, 531 U.S. 941 (No. 00-97), 2000 WL 33999989, at *i.
7

As Plaintiffs and several amici observe, both chambers of
Congress have concluded in the time since Adams that Congress
does have the at-issue power. In 2007, the House passed H.R.
1905, which, inter alia, would have treated the District as a
congressional district for the purposes of representation in the
House. H.R. 1905, 110th Cong. (2007). In 2009, the Senate
passed S.160, which would have provided the District with a
voting seat in the House. S.160, 111th Cong. (2009). Plaintiffs
note also that two former D.C. Circuit Judges – Kenneth Starr
and Patricia Wald – testified before Congress in support of
Congress’s ability to use its District Clause powers in this
8

39a
(citing, in addition, the interposition of Obergefell v.
Hodges, 135 S. Ct. 2584 (2015), Vieth v. Jubelirer, 541
U.S. 267 (2004), and Gill v. Whitford, 138 S. Ct. 1916
(2018)). Plaintiffs’ new theories, they contend, take the
instant case outside the ambit of the Adams decisions
and warrant our fresh consideration of the issues
presented. We do not pass on whether these
distinctions, standing alone, would be sufficient to
remove this case from Adams’s ambit, for they are
joined by additional considerations. We are heedful of
the Supreme Court’s repeated statements that
summary affirmances have less precedential weight
than do full opinions. See, e.g., Wynne, 135 S. Ct. at
1800; Morse, 517 U.S. at 203 n.21. And because the
twin summary affirmances in Adams present “rather
manner. See Hearing on S. 1257, the District of Columbia House
Voting Rights Act of 2007, Before the S. Comm. on the Judiciary,
110th Cong. (2007) (statement of Patricia M. Wald); Common
Sense Justice for the Nation’s Capital: Hearing Before the H.
Comm. on Gov’t Reform, 108th Cong., at 75-84 (2004) (statement
of Kenneth Starr); but see 155 Cong. Rec. S2529 (daily ed. Feb. 26,
2009) (statement of John P. Elwood, Deputy Assistant Attorney
General) (contending the 2007 bill was unconstitutional).
Scholars have also weighed in on both sides of this issue. See,
e.g., Jonathan Turley, Too Clever by Half: The
Unconstitutionality of Partial Representation of the District of
Columbia in Congress, 76 GEO. WASH. L. REV. 305 (Feb. 2008);
Mark S. Scarberry, Historical Considerations and Congressional
Representation for the District of Columbia: Constitutionality of
the D.C. House Voting Rights Bill in Light of Section Two of the
Fourteenth Amendment and the History of the Creation of the
District, 60 ALA. L. REV. 783 (2009); Orrin G. Hatch, “No Right is
More Precious in a Free Country”: Allowing Americans in the
District of Columbia to Participate in National Self-Government,
45 HARV. J. ON LEGIS. 287 (Summer 2007); CONG. RESEARCH
SERV., THE CONSTITUTIONALITY OF AWARDING THE DELEGATE FOR
THE DISTRICT OF COLUMBIA A VOTE IN THE HOUSE OF
REPRESENTATIVES OR THE COMMITTEE OF THE WHOLE (2009).

40a
slender reed[s]” on which to rest our decision,
Celebrezze, 460 U.S. at 784 n.5 (citation omitted), we
conduct our own independent analysis, an approach of
which the Supreme Court has previously approved,
see id. at 784-85. For the reasons that follow, we reach
the same conclusion on the question of Article I’s
import as did the Adams panel twenty years ago. As in
Adams, the conclusion must follow that Plaintiffs’
constitutional challenges to their exclusion from
apportionment and from the House franchise fail.
B.

The Parties’ Arguments

To review, Article I of the Constitution provides
that “[t]he House of Representatives shall be composed
of Members chosen every second Year by the People of
the several States, and the Electors in each State shall
have the Qualifications requisite for Electors of the
most numerous Branch of the State Legislature.” U.S.
CONST. art. I, § 2, cl. 1. Section 2, Clauses 2 through

41a
4, 9 Section 4, Clause 1, 10 Article II Section 1, Clause
9

No Person shall be a Representative who shall not
have attained to the Age of twenty five Years, and
been seven Years a Citizen of the United States,
and who shall not, when elected, be an Inhabitant
of that State in which he shall be chosen.
Representatives and direct Taxes shall be
apportioned among the several States which may
be included within this Union, according to their
respective Numbers, which shall be determined by
adding to the whole Number of free Persons,
including those bound to Service for a Term of
Years, and excluding Indians not taxed, three fifths
of all other Persons. The actual Enumeration shall
be made within three Years after the first Meeting
of the Congress of the United States, and within
every subsequent Term of ten Years, in such
Manner as they shall by Law direct. The Number
of Representatives shall not exceed one for every
thirty Thousand, but each State shall have at Least
one Representative; and until such enumeration
shall be made, the State of New Hampshire shall be
entitled to chuse three, Massachusetts eight,
Rhode-Island and Providence Plantations one,
Connecticut five, New-York six, New Jersey four,
Pennsylvania eight, Delaware one, Maryland six,
Virginia ten, North Carolina five, South Carolina
five, and Georgia three.
When vacancies happen in the Representation
from any State, the Executive Authority thereof
shall issue Writs of Election to fill such Vacancies.
U.S. CONST. art. I, § 2, cl. 2-4.
10

The Times, Places and Manner of holding Elections
for Senators and Representatives, shall be
prescribed in each State by the Legislature thereof;

42a
2, 11 and Section 2 of the Fourteenth Amendment 12
also refer to “States” in discussing House
representation. Meanwhile, the District Clause,
but the Congress may at any time by Law make or
alter such Regulations, except as to the Places of
chusing Senators.
U.S. CONST. art. I, § 4, cl. 1.
11

Each State shall appoint, in such Manner as the
Legislature thereof may direct, a Number of
Electors, equal to the whole Number of Senators
and Representatives to which the State may be
entitled in the Congress: but no Senator or
Representative, or Person holding an Office of
Trust or Profit under the United States, shall be
appointed an Elector.
U.S. CONST. art. II, § 1, cl.
12

Representatives shall be apportioned among the
several States according to their respective
numbers, counting the whole number of persons in
each State, excluding Indians not taxed. But when
the right to vote at any election for the choice of
electors for President and Vice President of the
United States, Representatives in Congress, the
Executive and Judicial officers of a State, or the
members of the Legislature thereof, is denied to
any of the male inhabitants of such State, being
twenty-one years of age, and citizens of the United
States, or in any way abridged, except for
participation in rebellion, or other crime, the basis
of representation therein shall be reduced in the
proportion which the number of such male citizens
shall bear to the whole number of male citizens
twenty-one years of age in such State.
U.S. CONST. amend. XIV § 2.

43a
contained in Article I, Section 8 of the Constitution,
provides that “[t]he Congress shall have Power . . . To
exercise exclusive Legislation in all Cases whatsoever,
over such District (not exceeding ten Miles square) as
may, by Cession of particular States, and the
Acceptance of Congress, become the Seat of the
Government of the United States[.]” Id. art I, § 8, cl.
17.
Defendants argue that the Constitution itself
“reserves representation in the House and Senate to
residents of a state – a group that does not include
residents of the District.” Mem. in Supp. of MTD at
20. As Defendants see it, because “the Constitution
dictates the lack of representation for residents of the
District, . . . all of Plaintiffs’ claims must fail,
regardless of which sections of the Constitution
Plaintiffs cite.” Id. at 25 (“Plaintiffs . . . cannot
successfully establish that the Constitution itself is
unconstitutional.”). Plaintiffs, on the other hand,
argue that “while the Constitution explicitly requires
citizens of States to have voting representation,” it
also authorizes Congress, via the District Clause, to
provide the congressional franchise to District
residents. 13 Mem. in Supp. of MSJ at 8 (emphasis in
original); see Pls.’ Reply at 3, ECF No. 50 (“The
constitutional
provisions
requiring
voting
representation for state residents set a floor, not a
Several amici join Plaintiffs in contending that Congress is
empowered by the District Clause to grant District residents the
congressional franchise. See generally Scholars’ Br.; House’s Br.;
see also Historians’ Br. at 3-6 (arguing that there is no historical
evidence that the Framers intended to disenfranchise District
residents).
13

44a
ceiling.”); see generally id. at 3-11. Plaintiffs’
argument is, essentially: that the District Clause
empowers Congress to treat the District for
apportionment purposes as if it were a State; that
voting is a fundamental right that Congress must
allocate to all citizens on an equal basis absent a
compelling reason to do otherwise; and that such
compelling reason is absent here. It is on this basis
that Plaintiffs seek to establish that the
apportionment statutes, 2 U.S.C. § 2a and 13 U.S.C. §
141, are unconstitutional for their exclusion from the
apportionment process, and their resultant exclusion
from House representation, of District residents.
In a way, the parties are asking the Court to
answer different questions. Defendants would have
the Court determine if the Constitution contemplated
that only “the People of the several States” would have
voting representation in Congress. If that is the
constitutionally ordained system, say Defendants,
Plaintiffs’ claims cannot succeed, as the Constitution
cannot be unconstitutional. Plaintiffs contend that the
Court should instead ask if Congress can use its
District Clause powers to allocate Representatives to
the District, 14 because if it is empowered to do so, then
the ability to elect House Representatives is not
inherently limited to “the People of the several
States,” and so it is not a contradiction in terms to
say that District residents’ lack of the House

14

See supra note 8.

45a
franchise is unconstitutional. 15
One difficulty here is that the inquiry Plaintiffs
would have the Court undertake is rather circular:
Plaintiffs contend that Congress’s plenary power over
the District is what renders those constitutional
provisions that tie House representation to the States
nonexclusive. But we break through this chicken-oregg conundrum by observing that multiple Supreme
Court pronouncements undercut the notion that
Congress’s District Clause power has no outer limits.
The Supreme Court has repeatedly recognized that
the other provisions of the Constitution serve as a
check on Congress’s District Clause power. See, e.g.,
Keller v. Potomac Elec. Power Co., 261 U.S. 428, 44244 (1923) (concluding that Congress could not
contravene Article III by using its District Clause
powers to create jurisdiction in the Supreme Court to
Plaintiffs do not seriously contest the point that the
Constitution cannot be unconstitutional; indeed, they “agree”
with Defendants that “the constitutional provisions . . . allocating
representatives and Senators to the [S]tates are constitutional.”
Pls.’s Reply at 3. This is an eminently reasonable position, and
we see no need to belabor the tautology, as it is “settled beyond
dispute that the Constitution is not self-destructive.” Billings v.
United States, 232 U.S. 261, 282-83 (1914); accord, e.g., Morgan
v. United States, 801 F.2d 445, 448 (D.C. Cir. 1986) (“Unless the
Constitution were unconstitutional, one would think that, on
those hypotheses, further review would certainly be barred.”
(emphasis in original)); Igartúa v. United States, 626 F.3d 592,
596 (1st Cir. 2010) (concluding that Article I by its terms
prohibits Puerto Rico from having a House Member, and
observing that “it cannot, then, be unconstitutional to conclude
the residents of Puerto Rico have no right to vote for
Representatives”); Mercer v. Magnant, 40 F.3d 893, 898 (7th Cir.
1994) (“[P]rocedures required by the Constitution are not
themselves unconstitutional.”).
15

46a
consider appeals from the D.C. Court of Appeals’
review of utility commission proceedings). That is,
Congress’s power over the District is indeed “plenary”
– “save as controlled by the provisions of the
Constitution.” Binns v. United States, 194 U.S. 486,
491 (1904); see also Atl. Cleaners & Dyers v. United
States, 286 U.S. 427, 434-35 (1932) (Congress may
legislate with respect to the District “so long as other
provisions of the Constitution are not infringed”
(citation omitted)); Capital Traction Co., 174 U.S. at
5 (Congress may legislate with respect to the District
“so long as it does not contravene any provision of the
constitution of the United States” (citation omitted));
see also Palmore v. United States, 411 U.S. 389, 397
(1973) (quoting this language from Capital Traction
Co.); cf. Stoutenburgh v. Hennick, 129 U.S. 141, 147
(1889) (stating that, under the District Clause,
Congress “possess[es] the combined powers of a
general and of a state government in all cases where
legislation is possible” (emphasis added)).
A striking (if not immediately apparent) instance
of Supreme Court recognition of this limitation can be
seen in National Mutual Insurance Co. v. Tidewater
Transfer Co., 337 U.S. 582 (1949), which Plaintiffs cite
to support their broad reading of Congress’s District
Clause power. In Tidewater, a deeply divided
Supreme Court upheld Congress’s provision, in 28
U.S.C. § 1332, that diversity jurisdiction would be
deemed to exist in a case between a citizen of a State
and a citizen of the District. See generally 337 U.S.
582; cf. U.S. CONST. art. III, § 2, cl. 1 (“The judicial
Power shall extend to all Cases . . . between Citizens
of different States[.]”). Tidewater is made up of four
different opinions – a three-justice plurality, a two-

47a
justice concurrence, and two two-justice dissents – but
six justices agreed that Congress could not use its
District Clause power to override explicit
constitutional provisions. Contra Pls.’ Reply at 6-7
(arguing that both the plurality opinion and the
concurrence support their position, albeit through
different reasoning).
The plurality, while finding that “the District of
Columbia is not a state within Article III of the
Constitution,” id. at 588, did hold that Congress could
include the District in diversity jurisdiction through a
combination of its District Clause and Necessary and
Proper Clause powers; in a highly contextual analysis,
the plurality discussed and built upon other instances
in which Congress had used other plenary Article I
powers to confer non-Article-III jurisdiction on Article
III courts, id. at 592-599; see also id. at 603 (“Congress
is reaching permissible ends by a choice of means
which certainly are not expressly forbidden by the
Constitution.”).
The two-justice concurrence, meanwhile, reasoned
that “the words of Article III . . . must mark the limits
of the power Congress may confer on the district
courts in the several states,” and that those limits
cannot be overridden “through invocation of Article I
without making the Constitution a self-contradicting
instrument,” id. at 607; see also id. at 608 (“[I]t seems
past belief that Article I was designed to enable
Congress” to override Article III). The concurrence
concluded, however, that § 1332 was constitutional
because Article III’s diversity provision should not be
read as exclusive in the absence of any evidence that
the Framers so intended it, id. at 617-25. The four

48a
justices who dissented would have held § 1332
unconstitutional for “disregard[ing] an explicit
limitation of Article III.” Id. at 653; see id. at 655.
Plaintiffs also rely on Loughborough v. Blake, 18
U.S. 317 (1820), contending that it supports their
interpretation
of
the
District
Clause.
In
Loughborough, the Supreme Court considered
whether the Constitution permitted Congress to
impose a direct tax on residents of the District. 18 U.S.
at 317-18. In finding that it did, the Supreme Court
cited two grounds for Congress’s power: Article I,
Section 8, Clause 1 (the “Power To lay and Collect
Taxes, Duties, Imposts and Excises”), id. at 319-24,
and the District Clause, id. at 324-25. Plaintiffs here
make much of Article I, Section 2, Clause 3
(“Representatives and direct Taxes shall be
apportioned among the several States which may be
included within this Union, according to their
respective numbers” as determined by the census) and
the
Supreme
Court’s
ultimate
finding
in
Loughborough that direct taxation may be imposed on
District residents, arguing that “it therefore follows
that Congress may use its District Clause power to
apportion ‘Representatives’ to the District as well,”
Pls.’ Reply at 6. But the Supreme Court’s invocation
of the District Clause took place in the context of its
discussion of Congress’s Article I, Section 8, Clause 1
power to tax, a “general grant of power to lay and
collect taxes,” which the Supreme Court considered
“incontrovertibl[y]”
“made
in
terms
which
comprehend the district and territories as well as the
States.” Loughborough, 18 U.S. at 322. In light of that
broad power, the Court considered the apportionment
provision of Article I, Section 2, Clause 3 to “furnish a

49a
standard by which taxes are to be apportioned, not to
exempt from their operation any part of our country.”
Id. at 320 (“Had the intention been to exempt from
taxation those who were not represented in Congress,
that intention would have been expressed in direct
terms.”). As we discuss below, Plaintiffs’ argument
that the same logic could be used to extend House
representation to the District via the District Clause
runs up against the other provisions of Article I. In
Loughborough, on the other hand, no other
constitutional provision was pointed to as restraining
Congress’s District Clause powers. See id. at 324-25
(discussing only the potential limitations posed by the
“great principle . . . that representation is inseparable
from taxation”). In order for Plaintiffs’ analogy to and
reliance on Loughborough to work, the Constitution
would have to give Congress plenary power to
apportion representatives – which it simply does not.
See generally U.S. CONST. art. I, § 2, cl. 3; id. amend.
XIV, § 2 (setting forth how House Representatives are
to be apportioned).
In the same vein, the Supreme Court has
previously found other power granted Congress by
Article I to be limited by other portions thereof. Powell
v. McCormack concerned a newly reelected Member of
the House who, pursuant to a House resolution, was
not permitted to take his seat (because the House
suspected him of financial improprieties). 395 U.S. at
489. The Powell defendants argued that the case
presented a nonjusticiable political question because
Article I, Section 5, Clause 1 (“Each House shall be the
Judge of the Elections, Returns and Qualifications of
its own Members”) represented a textual commitment
of the matter to a coordinate branch of government.

50a
395 U.S. at 519-20. The Supreme Court undertook an
historical analysis of Section 5 and determined that
“Art. I, § 5, is at most a ‘textually demonstrable
commitment’ to Congress to judge only the
qualifications expressly set forth in the Constitution.”
395 U.S. at 548 (quoting Baker, 369 U.S. at 217); see
also U.S. CONST. art. I, § 2, cl. 2 (“No Person shall be a
Representative who shall not have attained to the Age
of twenty five Years, and been seven Years a Citizen of
the United States, and who shall not, when elected, be
an Inhabitant of that State in which he shall be
chosen.”). In other words, the general power granted
Congress by Article I, Section 5 ran up against, and
yielded to, the specific provisions of Article I, Section
2.
In a way, Plaintiffs are in fact arguing for the
commonsense proposition that Congress’s power to
legislate for the District is cabined by the other
provisions of the Constitution: Plaintiffs’ contention is
that Congress, by providing for apportionment in a
way that does not give the House franchise to District
residents, is running afoul of the First, Fifth, and
Fourteenth Amendments. But this argument ignores
the fact that congressional legislation on
apportionment does not stand on its own; rather, it
follows the dictates of other portions of the
Constitution to the extent the Constitution itself
limits House representation to the States. Therefore,
if the Constitution limits House representation to the
“States,” Plaintiffs – who expressly do not concede
they must be able to characterize themselves as
residents of a State, and do not argue the District is a
State – cannot succeed on their claims. Despite their
protestations to the contrary, Plaintiffs do seek to

51a
establish that the Constitution is unconstitutional,
because they argue that the statutes by which
Congress has put Article I’s provisions for
apportionment into action (2 U.S.C. § 2a and 13 U.S.C.
§ 141) violate the First, Fifth, and Fourteenth
Amendments. See Am. Compl. Prayer for Relief ¶ 1
(seeking a declaration that the apportionment
statutes “are unconstitutional insofar as they require
or have been applied to effect the exclusion of citizens
of the District of Columbia from the Congressional
apportionment process”). Given that Congress’s
District Clause power is bounded by the
Constitution’s other provisions, Plaintiffs’ claims
must rise or fall on the interpretation of those
provisions that address the makeup of the House
electorate.
C.

The Merits

We now consider whether the Constitution
contemplates that only “the People of the several
States” be permitted to elect voting Representatives
to the House. See U.S. CONST. art I, § 2, cl. 1. Our
answer in the affirmative is based on the
Constitution’s text, judicial precedent, and, to a lesser
extent, constitutional history.
1.

Constitutional Text

The link between “States” and representation in
the House is sewn throughout Article I. Members of
the House are to be elected “by the People of the Several
States,” and the qualifications of “each State[’s]”
electors (voters) are tied to those of the electors of the
“State Legislature.” U.S. CONST. art I, § 2, cl. 1
(emphases added). A representative must, at the time

52a
of her election, be “an Inhabitant of that State in
which” she is chosen. Id. cl. 2 (emphasis added).
Article I as unabridged dictated that both
“Representatives and direct Taxes” are “apportioned
among the several States which may be included
within this Union,” id. cl. 3 (emphasis added), and the
Fourteenth
Amendment
provides
that
“Representatives shall be apportioned among the
several States according to their respective numbers,
counting the whole number of persons in each State,”
id. amend. XIV, § 2 (emphases added). Article I,
Section 2 further dictates that “each State shall have
at Least one Representative,” and lists the number of
representatives to be apportioned to the thirteen
States that were then members of the Union. Id. art. I,
§ 2, cl. 3 (emphasis added). Section 2 also states that,
“[w]hen vacancies happen in the Representation from
any State, the Executive Authority thereof shall issue
Writs of Election to fill such Vacancies.” Id. cl. 4
(emphasis added). And Section 4 provides that “[t]he
Times, Places and Manner of holding Elections for
Senators and Representatives, shall be prescribed in
each State by the Legislature thereof; but the
Congress may at any time by Law make or alter such
Regulations, except as to the Places of chusing
Senators.” Id. § 4, cl. 1 (emphasis added).
As the Adams panel noted, 90 F. Supp. 2d at 4749, a reading of “State” in the applicable provisions of
Article I that encompassed the District would lead to
results that either are impossible or cannot have been
contemplated by the Framers. Voter eligibility is tied
to that for the “State Legislature,” U.S. CONST. art I, §
2, cl. 1, but until the 1973 passage of the Home Rule
Act, Pub. L. No. 93-198, 87 Stat. 777, the District of

53a
Columbia had nothing analogous; rather, Congress
itself was conceived of as the District’s legislative
body. See U.S. CONST. art. I, § 8, cl. 17; see also, e.g.,
Stoutenburgh, 129 U.S. at 147 (noting that the
District Clause grants Congress “the combined powers
of a general and of a state government in all cases
where legislation is possible”). If the “State
Legislature” referred to in Article I were read to
comprehend Congress as the District’s legislature,
“with the House as its most numerous branch, then
the clause would say no more than that voters for the
House must have the qualifications requisite for
voters for the House—a tautology without
constitutional content.” Adams, 90 F. Supp. 2d at 48.
Another example is Article I, Section 2, Clause 4’s
provision for the filling of vacancies “from any State
[by] the Executive Authority thereof[.]” U.S. CONST.
art. I, § 2, cl. 4. Although the District now has a mayor,
this is again a relatively recent invention – and
Congress is the District’s “ultimate executive
authority,” Adams, 90 F. Supp. 2d at 49 (citing N.
Pipeline Constr. Co. v. Marathon Pipe Line Co., 458
U.S. 50, 76 (1982) (“Congress’ power over the District
of Columbia encompasses the full authority of
government, and thus, necessarily, the Executive and
Judicial powers as well as the Legislative.”)), meaning
that, were the District to be comprehended within the
applicable passages, Congress itself would fill any
vacancies in the District’s seat(s). As the Adams panel
cogently observed, “[t]he possibility that the Framers
intended Congress to fill its own vacancies seems far
too much of a stretch, even if the constitutional fabric
were more flexible than it appears to be.” Id.
“The framers of the constitution employed words

54a
in their natural sense; and, where they are plain and
clear, resort to collateral aids to interpretation is
unnecessary, and cannot be indulged in to narrow or
enlarge the text[.]” McPherson v. Blacker, 146 U.S. 1,
27 (1892); but see id. (“[B]ut where there is ambiguity
or doubt, or where two views may well be entertained,
contemporaneous
and
subsequent
practical
construction is entitled to the greatest weight.”).
Although we perceive no ambiguity in Article I’s
dictates concerning the “States” whose “people” are
entitled to the House franchise, we proceed to dispel
any remaining doubts by considering judicial
constructions of the relevant portions of Article I, and
reiterating an historical issue surfaced in Adams.
2.

Precedent

“Whether the District of Columbia constitutes a
‘State or Territory’ within the meaning of any
particular statutory or constitutional provision
depends upon the character and aim of the specific
provision involved.” District of Columbia v. Carter,
409 U.S. 418, 420 (1973). We are not persuaded that
any of the Constitution’s other uses of the word
“State” address matters near enough to those here at
issue that their judicial interpretations would shed
light on the question before us; we therefore concern
ourselves only with judicial pronouncements on the
import of the word “State” in the at-issue provisions of
Article I.
Given Plaintiffs’ unusual position in the American
constituency and the resultant scarcity of analogous
cases, it is not surprising that the most on-point
appellate precedent is only persuasive. The First
Circuit considered in 2010 whether U.S. citizens

55a
residing in Puerto Rico had a right to elect a
Representative to the House. Igartúa v. United States,
626 F.3d 592 (1st Cir. 2010). In holding that the
Constitution foreclosed such a right, the First Circuit
surveyed the constitutional text, and noted:
The text of the Constitution defines the
term “State” and affords no flexibility
as to its meaning. The term is
unambiguous and refers to the thirteen
original states, which are specifically
named in Article I, Section 2, [U.S.
CONST.] art. I, § 2, cl. 3, and those
which have since joined the Union
through the process set by the
Constitution, id. art. IV, § 3, cl. 1. . . .
Because Puerto Rico is not a state, it
may not have a member of the House of
Representatives. Id. art. I, § 2, cl. 1. . . .
The text of the Constitution does not
permit plaintiffs to vote for a member
of the U.S. House of Representatives.
Igartúa, 626 F.3d at 596; see also id. (“It cannot, then,
be unconstitutional to conclude the residents of Puerto
Rico have no right to vote for Representatives.”).
Igartúa also discusses how “central” statehood is “to
the very existence of the Constitution.” Id. at 596-98
(concluding that “[v]oting rights for the House of
Representatives are limited to the citizens of the states
absent constitutional amendment to the contrary.”).
Those few other federal appellate cases to have
considered the precise issue have held similarly. See
Segovia v. United States, 880 F.3d 384, 390 (7th Cir.
2018) (discussing, in a case brought by former State

56a
residents who now resided in territories, the voting
rights accorded to residents of the District and the
territories, and observing, “The unmistakable
conclusion is that, absent a constitutional amendment,
only residents of the 50 States have the right to vote in
federal elections”); Igartúa v. Trump, 868 F.3d 24 (1st.
Cir. 2017) (noting, in a four-judge statement on denial
of rehearing of Igartúa en banc, that the plaintiff’s
claim “is that the United States Constitution makes it
unconstitutional to apportion congressional districts
as the Constitution itself says to apportion them,” and
that none of the judges dissenting from a denial of
rehearing “even tries to explain how the Constitution
itself might conceivably prohibit that which it directs
‘shall be’ done”). Though of course we are bound by
none of these decisions, we find them persuasive –
especially in the absence of any caselaw to the
contrary.
Our own Court of Appeals has opined on the topic
to a certain extent. The Adams panel, of course,
concluded – after an exhaustive analysis – that “the
language of Article I . . . makes clear just how deeply
[c]ongressional representation is tied to the structure
of statehood.” 90 F. Supp. 2. at 47; see also id. at 68
(“[T]he inability of District residents to vote is a
consequence of Article I.”). The D.C. Circuit, citing
Adams, has stated in dictum that “the Constitution
denies District residents voting representation in
Congress.” Banner v. United States, 428 F.3d 303, 309
(D.C. Cir. 2005) (per curiam) (citing Adams, 90 F.
Supp. 2d at 72); see also United States v. Thompson,
452 F.2d 1333, 1340 (D.C. Cir. 1971) (“[F]or residents
of the District, the right to vote in congressional
elections is not merely restricted–it is totally denied.”

57a
(dictum)), abrogation on other grounds recognized by
United States v. Cohen, 733 F.2d 128, 135 (D.C. Cir.
1984) (en banc). The D.C. Circuit has further noted, in
a 1994 case concerning a House rule that permitted
the District’s Delegate to vote in the Committee of the
Whole, that the language of Article I, Section 2
“precludes the House from bestowing the
characteristics of membership” – which include the
ability “to vote in the full House” – “on someone other
than those ‘chosen every second Year by the People of
the Several States.’” Michel v. Anderson, 14 F.3d 623,
630 (D.C. Cir. 1994); see also id. at 632 (upholding the
House rule in question because “insofar as the rule
change bestowed additional authority on the
delegates, that additional authority is largely
symbolic . . . . [W]e do not think this minor addition
to the office of delegates has constitutional
significance.”).
Supreme Court pronouncements on the subject are
a lightly mixed bag. Historically, the Supreme Court
has evinced an understanding that House
representation is limited to the people of the States.
For instance, considering in 1901 whether the
Constitution’s revenue clauses extended to U.S.
territories, the Supreme Court emphasized that “[t]he
Constitution was created by the people of the United
States, as a union of states, to be governed solely by
representatives of the states . . . . In short, the
Constitution deals with states, their people, and their
representatives.” Downes v. Bidwell, 182 U.S. 244, 251
(1901) (emphases in original); see also Hepburn &
Dundas v. Ellzey, 6 U.S. 445, 452-53 (1805) (quoting
language from Article I regarding House, Senate, and
presidential elections, and concluding, “These clauses

58a
show that the word state is used in the constitution as
designating a member of the union . . . . [This] term
. . . [is] used plainly in this limited sense in the articles
respecting
the
legislative
and
executive
departments[.]”). The Supreme Court has also
referred to the District as having “voluntarily
relinquished
the
right
of
representation.”
Loughborough, 18 U.S. at 324; see also id. at 324-25
(“[C]ertainly the [C]onstitution does not consider their
want of a representative in Congress as exempting it
from equal taxation.”).
More recently, the Supreme Court has spoken of
the right to vote for Members of Congress as rooted in
the individual rather than deriving from the State –
but these pronouncements are fairly general, not
particularly on point, and ultimately insufficient to
counteract what we read as the clear provisions of
Article I. See, e.g., U.S. Term Limits, Inc. v. Thornton,
514 U.S. 779, 804 (1995) (“The [Constitution’s] salary
provisions reflect the view that representatives owe
their allegiance to the people, and not to the States.”);
id. at 808 (“As Madison noted, allowing States to
differentiate between the qualifications for state and
federal electors ‘would have rendered too dependent
on the State governments that branch of the federal
government which ought to be dependent on the
people alone.’” (quoting THE FEDERALIST NO. 52, at
326 (James Madison))); Wesberry v. Sanders, 376 U.S.
1, 14 (1964) (“The House of Represen[t]atives, the
Convention agreed, was to represent the people as
individuals, and on a basis of complete equality for
each voter.”).
In sum, the weight of what precedent there is on

59a
the issue supports our reading of Article I as limiting
House representation to the people of the States.
3.

Constitutional History

We do not here rehearse constitutional history writ
large. Although Plaintiffs (and some of their amici)
spend a fair amount of time on historical arguments,
nowhere is it contended that the Framers of the
Constitution intended, by their repeated reference to
“States” in Article I, to refer to anything but those
entities of which the Union then had thirteen and now
has fifty. Cf. Adams, 90 F. Supp. 2d at 56 (“There is
simply no evidence that the Framers intended that not
only citizens of states, but unspecified others as well,
would share in the congressional franchise.”). But we
linger in constitutional history long enough to
reiterate and underline a critical point made in
Adams: namely, that the process by which Congress
came to be composed as it is counsels against the
broad, nonexclusive reading of “State(s)” that would
necessarily underpin the prevalence of Plaintiffs’
claims.
The bicameral structure of Congress was the result
of the Constitutional Convention’s Great Compromise
– a deal struck between delegates who favored
election by and representation of the people, and those
delegates (including those from small States) who
argued that the States should instead be represented.
Wesberry, 376 U.S. at 9-14; see also id. at 10 (“The
question of how the legislature should be constituted
precipitated the most bitter controversy of the
Convention.”), 12 (“The dispute came near ending the
Convention without a Constitution.”). The Adams
panel observed that “the House provisions . . . were

60a
‘the other side of the compromise’: to satisfy the larger
states, the House was to be popularly elected, and ‘in
allocating Congressmen the number assigned to each
State should be determined solely by the number of
the State’s inhabitants.’” 90 F. Supp. 2d at 50 (quoting
Wesberry, 376 U.S. at 13) (emphasis in Adams). The
point we underscore is that the constitution of
Congress was the considered result of extensive
debate, and in the absence of any evidence that the
Framers intended something other than what they
wrote, it is not the place of either Congress (acting via
the District Clause) or this Court to revise the results
of the compromise that was so central to the formation
of the country as it is.
X.

Conclusion

Because Congress’s District Clause power does not
include the power to contravene the Constitution’s
express provisions, and because the Constitution by
its terms limits House representation to “the people of
the several States,” we find that Plaintiffs’ claims that
their exclusion from apportionment is violative of
their rights to equal protection, due process, and
association and representation fail to state a claim
upon which relief can be granted. See FED. R. CIV. P.
12(b)(6). We therefore dismiss those claims. Having
also dismissed those of Plaintiffs’ claims that sought
to compel affirmative congressional action, and
having remanded to a single District Judge Plaintiffs’
Senate claims, our work is now at an end.
But before we end, we note what gives us pause.
We have been and remain cognizant of the gravity of
Plaintiffs’ asserted injury, which has long been of
great concern both to those similarly injured and to

61a
sympathetic others who take to heart the democratic
ideals that impelled and informed the creation of the
Union. After all, “[n]o right is more precious in a free
country than that of having a voice in the election of
those who make the laws under which, as good
citizens, we must live. Other rights, even the most
basic, are illusory if the right to vote is undermined.”
Wesberry, 376 U.S. at 17. But the House’s makeup,
though enshrined in the Constitution, is not written
in stone. The Founders provided for processes for the
admission of new States, see U.S. CONST. art. IV, § 3,
cl. 1 – which are then represented in the House under
the provisions of Article I – and for amending the
Constitution, see id. art. V, as was done to give District
residents the presidential franchise, see id. amend.
XXIII. In other words, Plaintiffs may continue to
“plead their cause in other venues,” Adams, 90 F.
Supp. 2d at 72: those the Constitution countenances.
For the foregoing reasons, those of Plaintiffs’
claims
seeking
Senate
representation
are
REMANDED to the single District Judge to whom the
case was originally assigned. Defendants’ Motion to
Dismiss, ECF No. 21, is hereby GRANTED IN
PART; all of Plaintiffs’ claims except those seeking
Senate representation are DISMISSED. Plaintiffs’
Motion for Summary Judgment, ECF No. 23, is hereby
DENIED.
An accompanying order will follow.
/s/ Robert L. Wilkins
ROBERT L. WILKINS
United States Circuit Judge

62a

/s/ Randolph D. Moss
RANDOLPH D. MOSS
United States District Judge
/s/ Trevor N. McFadden
TREVOR N. McFADDEN
United States District Judge
Date: March 12, 2020

63a

APPENDIX C
IN THE
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
Civil Action No. 18-2545
Three-Judge Court (RDM, RLW, TNM)
ANGELICA CASTAÑON, ET AL.,
Plaintiffs,
v.
UNITED STATES, ET AL.,
Defendants.
Filed: Sept. 16, 2020
Before: WILKINS, Circuit Judge, and MOSS and
MCFADDEN, District Judges.
Opinion for the Court filed by Circuit Judge WILKINS.

MEMORANDUM OPINION
WILKINS, Circuit Judge: This suit was brought by
registered voters residing in the District of Columbia
(the “District”) in an effort to secure for themselves,
and others similarly situated, the ability to elect
voting representatives to the United States Congress.
See generally Am. Compl., ECF No. 9. Suing Senate

64a
and Executive officials, 1 Plaintiffs challenged their
lack of the congressional franchise as unconstitutional
because violative of their rights to equal protection,
due process, and association and representation. Id.
This three-judge Court was convened under 28 U.S.C.
§ 2284(a), which provides that “[a] district court of
three judges shall be convened . . . when an action is
filed challenging the constitutionality of the
apportionment of congressional districts[.]” See Mem.
Op. 5-6, ECF No. 54 (finding three-judge Court to
have jurisdiction over Plaintiffs’ claims challenging
the District’s lack of representation in the House of
Representatives). Upon consideration of Defendants’
motion to dismiss, ECF No. 21, and Plaintiffs’ motion
for summary judgment, ECF No. 23, we declined to
exercise jurisdiction over those of Plaintiffs’ claims
aimed at attaining the Senate franchise, Mem. Op. 7,
dismissed those claims aimed at securing the House
franchise, id. at 13, 25, and denied Plaintiffs’
summary-judgment motion, id. at 26.
Plaintiffs now move the Court for reconsideration.
Mot. Reconsid. (“Motion”), ECF No. 58. Because we
find that justice does not require reconsideration, we
deny the Motion.
I.

Procedural History

In our Memorandum Opinion, we: (1) held that our
consideration of Plaintiffs’ House claims as a threejudge Court was proper under 28 U.S.C. § 2284(a),
Initially, Plaintiffs also sued House officials, Am. Compl. ¶¶ 5961, but they voluntarily dismissed the House Defendants, ECF
No. 20, who then filed an amicus brief in support of Plaintiffs,
ECF No. 38.

1

65a
Mem. Op. 5-6; (2) declined to exercise jurisdiction over
those of Plaintiffs’ claims seeking representation in
the Senate, id. at 6-7; (3) ruled that, insofar as
Plaintiffs sought to compel affirmative congressional
action, any such claims were nonjusticiable for want
of Article III standing, id. at 13; and (4) held that
those of Plaintiffs’ House claims that challenged
apportionment, though justiciable, id. at 14, were
foreclosed by the Constitution, id. at 25; we therefore
dismissed those claims, id. Plaintiffs’ Senate claims
have not yet been adjudicated, and judgment was
never entered as to any of Plaintiffs’ claims.
In the course of our analysis of Plaintiffs’ claims,
we made note of the following:
We do not understand Plaintiffs to be
challenging the Uniformed and
Overseas Citizens Absentee Voting Act
(“UOCAVA”), Pub. L. No. 99-410, 100
Stat 924 (1986) (codified at 52 U.S.C. §§
20301-11). UOCAVA requires States
(as well as U.S. territories and the
District of Columbia) to permit
otherwise-qualified voters residing or
stationed overseas to vote in the last
place they were domiciled prior to
leaving the United States. 52 U.S.C. §§
20302, 20310. Although the Amended
Complaint
does
make
repeated
mention of UOCAVA with respect to
Plaintiffs’ equal-protection claim, see,
e.g., Am. Compl. ¶¶ 4, 111, 112, 114,
125, 135, it has none of the hallmarks
we would expect of a complaint

66a
challenging
UOCAVA’s
constitutionality or contending that
UOCAVA should be expanded to grant
some
District
residents
the
congressional franchise. For instance,
the Amended Complaint’s focus is
evidently on securing congressional
representation for District residents
qua District residents, not as (former)
residents of States. See, e.g., id. ¶¶ 6
(arguing for “the constitutional right of
District residents to band together to
further their political beliefs”), 133
(“Without voting representation in the
House and the Senate, District
residents are unable to rely on local
champions in Congress arguing for a
fairer distribution of federal funds.”).
None of Plaintiffs’ allegations as to the
Defendants sued pertains to UOCAVA.
See id. ¶¶ 59-67. And none of the
requested relief addresses UOCAVA –
either striking the statute down
wholesale or allowing those District
residents who previously resided and
voted in States to continue to vote
there. See id. Prayer for Relief ¶¶ 1-7.
Because we conclude that Plaintiffs’
constitutional claims are otherwise
foreclosed, we have no occasion for
further discussion of UOCAVA.
Mem. Op. 13 n.5.

67a
Following the issuance of our Memorandum
Opinion, Plaintiffs filed the instant Motion, styled
“Plaintiffs’ Motion for Reconsideration or to Alter or
Amend Judgment under Rule 59(e).” Framing their
request for reconsideration as “narrowly focused” on
“a specific equal protection argument that the Court’s
Memorandum Opinion largely failed to address,”
Mem. in Supp. of Mot. 3, ECF No. 58-1, Plaintiffs –
while declaring repeatedly that they do not challenge
the validity of UOCAVA, id. at 4, 6 – argue that
UOCAVA’s “differential treatment of similarly
situated overseas citizens and District residents
violates the Equal Protection Clause,” id. at 1; see
also, e.g., id. at 1-2 (“[I]t violates the Equal Protection
Clause for Congress to allow the ‘people of the several
States’ who move abroad to continue to vote for
senators and representatives, but not to allow citizens
who move from the States to the District to do the
same[.]”). The Motion asks the Court to issue
declaratory and injunctive relief to the effect that
those District residents who relocated to the District
from States are entitled to be considered, for the
purposes of apportionment and the congressional
franchise, as residing in the States from which they
moved. Id. at 2.
II.

Standard of Review

Both Plaintiffs and Defendants invoke Federal
Rule of Civil Procedure (“Rule”) 59(e) as supplying the
relevant rubric for our review of the Motion. See Mem.
in Supp. of Mot. 2-3; Defendants’ Opposition to Mot.
(“Opp.”) 2-4, ECF No. 60. But it is Rule 54(b) that
governs. Rule 54(b) provides:

68a
When an action presents more than one
claim for relief . . . or when multiple
parties are involved, the court may
direct entry of a final judgment as to
one or more, but fewer than all, claims
or parties only if the court expressly
determines that there is no just reason
for delay. Otherwise, any . . . other
decision, however designated, that
adjudicates fewer than all the claims or
the rights and liabilities of fewer than
all the parties . . . may be revised at any
time before the entry of a judgment
adjudicating all the claims and all the
parties’ rights and liabilities.
FED. R. CIV. P. 54(b). The “express determination”
mandate of Rule 54(b) “is a bright-line requirement.”
Bldg. Indus. Ass’n of Superior Cal. v. Babbitt, 161
F.3d 740, 743 (D.C. Cir. 1998); see also Blackman v.
Dist. of Columbia, 456 F.3d 167, 175 (D.C. Cir. 2006)
(“The mandate of Rule 54(b) is plain and without
exception.”). But we made no express determination
“that there [wa]s no just reason for delay,” FED. R. CIV.
P. 54(b), either in the Memorandum Opinion or in the
accompanying Order, ECF No. 55, and judgment was
not entered as to any of Plaintiffs’ claims. Therefore,
“[t]he decision was interlocutory,” and we treat the
Motion “as filed under Rule 54(b).” Cobell v. Jewell,
802 F.3d 12, 25 (D.C. Cir. 2015).
While “[t]he precise standard governing Rule 54(b)
reconsideration is unsettled in our Circuit,” Cobell v.
Norton, 224 F.R.D. 266, 272 (D.D.C. 2004), our Court
of Appeals has recognized that a district court ruling

69a
on a Rule 54(b) motion does not abuse its discretion in
denying reconsideration on the basis of arguments it
has “already rejected on the merits,” Capitol Sprinkler
Inspection, Inc. v. Guest Servs., Inc., 630 F.3d 217, 227
(D.C. Cir. 2011). The Court of Appeals has also stated
that a district court should not treat the Rule 54(b)
standard as containing a “strict prohibition on raising
new arguments.” Jewell, 802 F.3d at 26. In the
absence of more specific appellate authority, many
district courts in this Circuit have employed the
following standard:
Justice may require revision when the
Court has patently misunderstood a
party, has made a decision outside the
adversarial issues presented to the
Court by the parties, has made an error
not of reasoning but of apprehension, or
where a controlling or significant
change in the law or facts has occurred
since the submission of the issue to the
Court. Errors of apprehension may
include a Court’s failure to consider
controlling decisions or data that might
reasonably be expected to alter the
conclusion reached by the court.
Singh v. George Wash. Univ., 383 F. Supp. 2d 99, 101
(D.D.C. 2005) (citations, alterations, and quotation
marks omitted); accord, e.g., Shvartser v. Lekser, 330
F. Supp. 3d 356, 360 (D.D.C. 2018); United States v.
Dynamic Visions, Inc., 321 F.R.D. 14, 17 (D.D.C.
2017); Jones v. Castro, 200 F. Supp. 3d 183 (D.D.C.
2016). Additionally, the party seeking reconsideration
under Rule 54(b) must establish “that some harm or

70a
injustice would result if reconsideration were to be
denied.” Pueschel v. Nat’l Air Traffic Controllers’
Ass’n, 606 F. Supp. 2d 82, 85 (D.D.C. 2009) (citation
omitted); accord, e.g., Dynamic Visions, Inc., 321
F.R.D. at 17; Cobell v. Norton, 355 F. Supp. 2d 531,
540 (D.D.C. 2005).
III.

Analysis

The Motion is not a picture of clarity, such that we
are not entirely certain under what theory Plaintiffs
are proceeding. There are, as we see it, two
possibilities: Either Plaintiffs seek reconsideration in
order to press an “equal protection claim based on
[UOCAVA],” Mem. in Supp. of Mot. 6 – in other words,
an equal-protection challenge to UOCAVA itself – or
they seek reconsideration in order to reiterate equalprotection arguments along the lines of those
necessarily rejected by our Memorandum Opinion, see
Mem. Op. 25 (“Because Congress’s District Clause
power does not include the power to contravene the
Constitution’s express provisions, and because the
Constitution by its terms limits House representation
to ‘the people of the several states,’ we find that
Plaintiffs’ claim[] that their exclusion from
apportionment is violative of their right[] to equal
protection . . . fail[s] to state a claim upon which relief
can be granted.”); Mem. in Supp. of Mot. 3 (“Plaintiffs
continue to believe that voting is a right of such
fundamental importance that Congress may properly
view that constitutional language as a floor rather
than a ceiling on who may exercise it.”). As we explain,
neither theory lays a path to success.
The first path seems to be the one that Plaintiffs,
in crafting the Motion, most likely intended to tread.

71a
Despite their declaration that they “do not challenge
the constitutionality of [UOCAVA],” Mem. in Supp. of
Mot. 4, Plaintiffs expend a fair bit of effort doing
exactly that. Plaintiffs assert that “Congress’s
extension of voting rights to overseas residents but
not to similarly situated residents of the District
violates equal protection,” id. (capitalization altered),
and that “the Equal Protection Clause requires
Congress” to provide the congressional franchise to
voters who relocate from a State to the District just as
it has to voters who instead relocate overseas, id.
Moreover, in support of their preferred remedial
outcome – the extension of the congressional
franchise, via their State of origin, to individuals who
have relocated to the District, id. at 2 – Plaintiffs rely
on the discussion of equal-protection remedies in
Sessions v. Morales-Santana, see id. at 8 n.7 (quoting
137 S. Ct. 1678, 1699 (2017)), a discussion quite
evidently premised on the existence of an equalprotection challenge to a statute, see 137 S. Ct. at 1698
(“There are two remedial alternatives . . . when a
statute benefits one class . . . and excludes another
from the benefit . . . . A court may either declare the
statute a nullity and order that its benefits not extend
to the class the legislature intended to benefit, or it
may extend the coverage of the statute to include
those who are aggrieved by exclusion.” (citations,
alterations, and internal quotation marks omitted)).
While we are counseled by Jewell that the “as
justice requires” rubric does not necessarily serve as a
bar to a Rule 54(b) movant’s raising new arguments,
802 F.3d at 26, the absence of such a barrier does not
assist Plaintiffs in their primary traverse, which is an
attempt to assert a new claim. We set forth in our

72a
Memorandum Opinion some of the reasons we did not
originally consider Plaintiffs to have been pressing an
“equal protection claim based on [UOCAVA],” Mem.
in Supp. of Mot. 6: The Amended Complaint’s evident
focus “on securing congressional representation for
District residents qua District residents, not as
(former) residents of States”; the absence of any
UOCAVA-related allegations as to any of the
Defendants; and the fact that “none of the requested
relief addresse[d] UOCAVA[.]” Mem. Op. 13 n.5.
Plaintiffs now charge the Court with having failed to
“directly respond to Plaintiffs’ equal protection claim
based on [UOCAVA],” Mem. in Supp. of Mot. 6, but
they surmise that “the Court declined to address the
issue because it was unclear to the Court whether
Plaintiffs sought relief modeled on the voting rights of
citizens living overseas,” id. at 1 (“Plaintiffs here
clarify that they did and do seek such relief, as well as
continuing to request whatever alternative relief the
Court may deem just and proper.” (citing Am. Compl.
Prayer for Relief ¶ 7)).
In other words, Plaintiffs now contend that the
Court “patently misunderstood” them, Singh, 383 F.
Supp. 2d at 101 – but they entirely fail to contend with
two of the three iterated bases for our conclusion that
they were not challenging UOCAVA in the first
instance, which again included the absence of any
allegations connecting the Defendants to the statute
Plaintiffs now purport to have challenged. Even
accepting arguendo the soundness of Plaintiffs’
premise that their catch-all, “boilerplate request[]” for
relief, Perry Capital LLC v. Mnuchin, 864 F.3d 591,
618 n.19 (D.C. Cir. 2017), should be read to pray for
relief fashioned on UOCAVA (which would run only to

73a
a subset of the named Plaintiffs 2), Plaintiffs do not
address the other aspects of the Amended Complaint
that informed our conclusion that UOCAVA as such
was not at issue. Because our prior reading of the
Amended Complaint satisfied us that Plaintiffs were
not in fact mounting an equal-protection challenge to
UOCAVA, and because the Motion fails to call that
conclusion into question, we cannot find that justice
requires us to reconsider our prior rulings to account
for the challenge to UOCAVA that Plaintiffs now seek
to assert.
Returning now to the trailhead, we need only take
a few steps along the second path before concluding
that this way, too, is a dead end. If (despite all
appearances) Plaintiffs are not attempting to assert a
challenge to UOCAVA itself, see, e.g., Mem. in Supp.
of Mot. 6 (“Plaintiffs do not challenge [UOCAVA.]”),
they must be relying on UOCAVA to reargue their
original equal-protection claim. But we previously
found the justiciable aspects of this claim, together
with Plaintiffs’ other constitutional challenges to the
apportionment statutes (2 U.S.C. § 2a and 13 U.S.C. §
141), to be foreclosed by the Constitution itself. Mem.
Op. 25; see generally id. at 21-25. Insofar as Plaintiffs
seek to relitigate that issue, they seem to point to
UOCAVA as evidence that Congress is in fact
empowered to give the operative constitutional
language – “the people of the several States” 3 – a
Of the eleven Plaintiffs named in the Amended Complaint, two
do not purport to have ever lived in a State. Am. Compl. ¶¶ 26,
54.
3 The Constitution provides that “[t]he House of Representatives
shall be composed of Members chosen every second Year by the
2

74a
sufficiently expansive reading as to encompass
individuals who once lived in the “several States” but
now live elsewhere. See, e.g., Mem. in Supp. of Mot. 3
(“Harmonizing [UOCAVA] with this Court’s ruling
that House representation is limited [to] ‘the people of
the several States’ requires understanding Congress
to have construed that phrase to include individuals
from the ‘several States’ who moved overseas.”). But,
as explained above, if anything, UOCAVA merely
supports the premise that Congress might treat
residents of the District of Columbia as residents of
the State in which they resided before moving to the
District; UOCAVA provides no precedent for treating
residents of the District of Columbia qua residents of
the district as among “the people of the several
States.” It was that premise – that residents of the
District qua residents of the District are not among
“the people of the several States” – that informed our
conclusion that Plaintiffs’ equal-protection law claim
was pretermitted by the Constitution’s own dictates.
See Mem. Op. 2. Plaintiffs’ motion for reconsideration
gives us no discernable reason to reexamine that
fundamental premise. As such, we again cannot
conclude that justice requires our reconsideration. See
Singh, 383 F. Supp. 2d at 101.

People of the several States,” U.S. CONST. art. I, § 2, cl. 1, and
that “Representatives shall be apportioned among the several
States according to their respective numbers,” id. amend. XIV §
2.

75a
IV.

Conclusion

For the foregoing reasons, Plaintiffs’ Motion for
Reconsideration or to Alter or Amend Judgment
under Rule 59(e), ECF No. 58, which we have
construed as a Rule 54(b) motion, is DENIED.
An accompanying order will follow.
/s/
ROBERT L. WILKINS
United States Circuit Judge
/s/
RANDOLPH D. MOSS
United States District Judge
/s/
TREVOR N. McFADDEN
United States District Judge
Date: September 16, 2020

